<html>
<title> - SOLVING THE CLIMATE CRISIS: RAMPING UP RENEWABLES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


           SOLVING THE CLIMATE CRISIS: RAMPING UP RENEWABLES

=======================================================================

                                HEARING

                               BEFORE THE

                        SELECT COMMITTEE ON THE
                             CLIMATE CRISIS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             JUNE 13, 2019

                               __________

                            Serial No. 116-5
                            
                            
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                            


                            www.govinfo.gov
   Printed for the use of the Select Committee on the Climate Crisis
                 
               
                               __________
                                
 
                     U.S. GOVERNMENT PUBLISHING OFFICE                    
 37-432                      WASHINGTON : 2019                     
           
 --------------------------------------------------------------------------------------
 For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
 http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
 U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="394956795a4c4a4d515c5549175a565417">[email&#160;protected]</a>         
 
                 
                 
                 
                 SELECT COMMITTEE ON THE CLIMATE CRISIS
                     One Hundred Sixteenth Congress

                      KATHY CASTOR, Florida, Chair
BEN RAY LUJAN, New Mexico            GARRET GRAVES, Louisiana,
SUZANNE BONAMICI, Oregon               Ranking Member
JULIA BROWNLEY, California           MORGAN GRIFFITH, Virginia
JARED HUFFMAN, California            GARY PALMER, Alabama
A. DONALD McEACHIN, Virginia         BUDDY CARTER, Georgia
MIKE LEVIN, California               CAROL MILLER, West Virginia
SEAN CASTEN, Illinois                KELLY ARMSTRONG, North Dakota
JOE NEGUSE, Colorado

                              ----------                              

                Ana Unruh Cohen, Majority Staff Director
                  Marty Hall, Minority Staff Director
                        climateacrisishouse.gov
                            
                            
                            
                            C O N T E N T S

                   STATEMENTS OF MEMBERS OF CONGRESS

                                                                   Page
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, and Chair, Select Committee on the Climate Crisis:
  Opening Statement..............................................     1
  Prepared Statement.............................................     3
Hon. Garrett Graves, a Representative in Congress from the State 
  of Louisiana, and Ranking Member, Select Committee on the 
  Climate Crisis:
  Opening Statement..............................................     4

                               WITNESSES

Abigail Ross Hopper, Esq., President and CEO, Solar Energy 
  Industries Association
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Tom Kiernan, President and CEO, American Wind Energy Association
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Christine Tezak, Managing Director, ClearView Energy Partners, 
  LLC
  Oral Statement.................................................    19
  Prepared Statement.............................................    21
Katherine Hamilton, Chair, 38 North Solutions
  Oral Statement.................................................    30
  Prepared Statement.............................................    32

                                APPENDIX

Question for the Record from Hon. Garret Graves to Christine 
  Tezak..........................................................    56
Questions for the Record from Hon. Kathy Castor to Katherine 
  Hamilton.......................................................    58

 
           SOLVING THE CLIMATE CRISIS: RAMPING UP RENEWABLES

                              ----------                              


                        THURSDAY, JUNE 13, 2019

                     U.S. House of Representatives,
                    Select Committee on the Climate Crisis,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:03 a.m., in Room 
2318, Rayburn House Office Building, Hon. Kathy Castor 
[chairwoman of the committee] presiding.
    Present: Representatives Castor, Bonamici, Brownley, 
McEachin, Levin, Casten, Graves, Griffith, Palmer, Carter, 
Miller, and Armstrong.
    Ms. Castor. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time. Today we will discuss the 
linchpin of any serious plan to address the climate crisis, 
ramping up renewable energy in the electric power sector.
    Good morning, everyone. Welcome to our outstanding 
witnesses who are here with us this morning.
    I now recognize myself for 5 minutes to give an opening 
statement.
    I am excited to talk about renewable energy this morning. 
But before I start, I want to acknowledge what has been 
happening with the climate crisis just since our last meeting.
    The headline of my local newspaper back in Florida last 
week read ``Florida Got Hot in May, like Record-Breaking Hot.''
    According to the National Oceanic and Atmospheric 
Administration, the State of Florida experienced its hottest 
May in more than a century. And it wasn't just a little hotter. 
The new record is nearly four degrees hotter than the previous 
record. And while Florida was the only State to break the May 
temperature record, Virginia had its third hottest May on 
record, while North Carolina, South Carolina, and Georgia all 
had their second hottest May ever.
    Record-breaking heat in the Arctic also pushed temperatures 
in Finland to levels never recorded before. In America's 
Arctic, the abnormal heat has led to fatal accidents in 
Alaska's rural villages. San Francisco, on Monday, hit 100 
degrees. Yes.
    In India, heat waves have driven temperatures higher than 
120 degrees. And when it is hot, people can't go outside. When 
it is that hot, they can't go outside anyway. They can't get to 
work, they can't go to school, they can't go shopping or buy 
food for their family.
    Last week also saw the release of a new scientific study 
examining the epidemic heat waves in 2018. The scientists 
concluded that these heat waves would not have occurred without 
human-induced climate change. They warn that we have entered a 
new climate regime, featuring heat waves of a scope and 
intensity not seen before.
    And of course deadly heat isn't the only danger. Right now, 
America's Midwest is still struggling with flooding, and 
wildfires are burning in Northern California despite a wet 
winter.
    Scientists say that we can expect more extreme events. And 
insurers say plan for greater risks. And as policymakers, we 
know with greater risk comes greater costs for families we 
represent back home. These are the stakes of the climate 
crisis.
    So I am glad we finally passed a disaster relief package 
with climate resilience included last week. But we can't adapt 
our way out of this crisis. We have to cut carbon pollution. 
Carbon pollution is what is causing this problem in the first 
place.
    So today we are focusing on renewable energy because it is 
such a big part of the puzzle. Renewables used to provide just 
a fraction of our electricity, but now they are up to 17 
percent and growing.
    In the past 10 years, wind power has quadrupled and costs 
have fallen by nearly 70 percent. Utility-scale solar has 
increased 30 times over, and costs have fallen by 88 percent. 
Now more than 350,000 people are working in the wind and solar 
industries.
    Renewable energy has flourished because we finally started 
giving wind and solar some of the same support that the fossil 
fuel industry has enjoyed for over a century.
    States have also led with renewable energy standards. 
California, Washington, Hawaii, Nevada, and New Mexico have 
committed to an energy grid powered by 100 percent clean 
energy. The new Governors of New Jersey, Minnesota, and 
Illinois have called for similar levels of ambition.
    South Carolina also passed the South Carolina Energy 
Freedom Act to promote solar energy just a couple months ago. 
It was bipartisan and unanimous and a pro-jobs and pro-economic 
growth bill.
    States have been in the lead, but we know here in the 
Congress we need to do more. The time is now.
    And we heard in our second hearing, we need to achieve net-
zero carbon pollution across our entire economy by the year 
2050. We have to do that to avoid catastrophic harm from the 
climate crisis.
    When scientists do the math, it is clear that the United 
States will have to generate much of its electricity from 
renewables to get there. Many experts see a continued role for 
nuclear power and fossil fuel plants with carbon capture, but 
renewable sources are crucial. Clean, renewable energy is the 
linchpin for solving the climate crisis.
    We need to move more quickly, to put more wind, solar and 
other renewables online. That means making sure that everyone 
has access to clean energy in their communities, whether they 
own a rooftop or not. And it means making sure that more jobs 
in clean energy are good, family-sustaining jobs, and it means 
providing good careers for young people who want to solve the 
climate crisis.
    This crisis is daunting. But the opportunities we have in 
front of us for good jobs, clean air, and a just future are 
boundless. So it is time for resolve, and it is a time for 
hope. We have the tools and the technology we need to succeed. 
We just need to decide to do it.
    With that, I will recognize the ranking member for 5 
minutes.
    [The statement of Ms. Castor follows:]
                               __________

Opening Statement (As Prepared for Delivery), Rep. Kathy Castor (D-FL), 
           U.S. House Select Committee on the Climate Crisis

    Solving the Climate Crisis: Ramping Up Renewables, June 13, 2019

    I'm excited to talk about renewable energy today, but before we 
start, I want to acknowledge what's been happening with the climate 
crisis since our last hearing.
    The headline of my local newspaper last week read: ``Florida Got 
Hot in May--Like Record-Breaking Hot.'' According the National Oceanic 
and Atmospheric Administration, the State of Florida experienced its 
hottest May in more than a century. And it wasn't just a little hotter. 
The new record is nearly four degrees hotter than the previous record. 
While Florida was the only state to break its May temperature record, 
Virginia had its third-hottest May on record, while North Carolina, 
South Carolina and Georgia all had their second hottest May ever.
    Record-breaking heat in the Arctic also pushed temperatures in 
Finland to levels never recorded before. In America's Arctic, the 
abnormal heat has led to fatal accidents in Alaska's rural villages. 
And San Francisco hit a record-breaking 100 degrees on Monday.
    In India, heat waves have driven temperatures higher than 120 
degrees. When it's that hot, people can't go outside. They can't get to 
work. They can't go to school. They can't go shopping and buy food for 
their family.
    Last week also saw the release of a new scientific study examining 
the epidemic of heat waves in 2018. The scientists concluded that these 
heat waves ``would not have occurred without human-induced climate 
change.'' They warned that we've entered a ``new climate regime'' 
featuring heat waves of a scope and intensity not seen before.
    And of course deadly heat isn't the only danger. Right now, 
America's Midwest is still struggling with flooding, and wildfires are 
burning in Northern California despite a wet winter. Scientists say we 
can expect more extreme events. Insurers say plan for greater risk. As 
policymakers, we know greater risk comes with greater costs for 
families we represent back home. These are the stakes of the climate 
crisis.
    So I'm glad we finally passed disaster relief with climate 
resilience last week. But we can't just adapt our way out of this 
crisis. We have to cut the carbon pollution that is causing the problem 
in the first place.
    Today we're focusing on renewable energy because it is such a big 
part of the puzzle. Renewables used to provide just a fraction of our 
electricity. But now they're up to 17 percent and growing. In the past 
ten years, wind power has quadrupled and costs have fallen by nearly 70 
percent. Utility-scale solar has increased 30 times over and costs have 
fallen by 88 percent. Now more than 350,000 people are working in the 
wind and solar industries.
    Renewable energy has flourished because we finally started giving 
wind and solar some of the same support the fossil fuel industry has 
enjoyed for more than a century. States have also led with renewable 
energy standards. California, Washington, Hawaii, Nevada, and New 
Mexico have committed to an electricity grid powered by 100 percent 
clean energy. The new governors of New Jersey, Minnesota and Illinois 
have called for similar levels of ambition. South Carolina also passed 
the South Carolina Energy Freedom Act to promote solar energy. It was 
bipartisan and unanimous and a pro-jobs and economic growth bill.
    States have been in the lead. But we know here in Congress we need 
to do more. As we heard in our second hearing, we need to achieve net-
zero carbon pollution across our entire economy by at least 2050 to 
avoid catastrophic harm from the climate crisis. When scientists do the 
math, it's clear that the United States will have to generate much of 
its electricity from renewables to get there. Many experts see a 
continued role for nuclear power and fossil-fuel plants with carbon 
capture, but renewable sources are crucial. Clean renewable energy is 
the linchpin for solving the climate crisis.
    We need to move quickly to put more wind, solar and other 
renewables online. That means making sure everyone has access to clean 
energy in their communities, whether they own a rooftop or not. And it 
means making sure that more of the jobs in clean energy are good, 
family-sustaining jobs. And it means providing good careers for young 
people who want to solve the climate crisis.
    The climate crisis is daunting. But the opportunities we have in 
front of us for good jobs, clean air and a just future are boundless. 
So, it is a time for resolve and it is a time for hope. We have the 
tools and technology we need to succeed. We just need to decide to do 
it.

    Mr. Graves. Thank you, Madam Chair. And I want to thank you 
for your statement.
    I think it is important for us to point out that certainly 
the climate change and the temperature changes are very 
concerning. And it is exciting to look back at the United 
States' record of being the Nation that has had the greatest 
reduction in emissions of any country in the world.
    And it is also important, as we continue to move forward to 
address this challenge, important to recognize that during that 
same period of time, that China has increased their emissions 
by 4 billion tons, so quadrupling the reduction in emissions 
that we have reduced. And so we must continue to look at this 
as the global challenge that it is.
    Madam Chair, there is no question that renewable energy 
sources are--have and will continue to play a very important 
role in our energy future. It is important for us to recognize 
that there are challenges with achieving this energy future 
that many of us do envision, challenges associated with the 
regulatory structure, the challenge associated with updating 
our grid system in order to facilitate this expansion of clean 
energy solutions.
    And many of the witnesses here today have--have run into 
these challenges of trying to get through this regulatory 
process, to bolster or to increase the role that renewables 
play. Making sure that we fully understand what role energy 
storage technology plays in an objective to expand the 
utilization of energy--renewable energy technologies. Some of 
the challenges associated there--certainly we have seen some of 
the rare earth news stories in recent weeks and what challenges 
those pose, some of the limits of battery storage technology 
and the role--the complementary role that natural gas and other 
energy streams will play and recognizing that solar energy 
isn't an option perhaps at night, Ms. Hopper, as we can talk 
about a bit more.
    And understanding how these interplay, understanding some 
of the challenges associated with a renewable energy strategy 
that has been pushed in the Northeast that actually resulted in 
dependence upon Russian energy being imported to address some 
of the issues there.
    We need to ensure that as we move forward with this--this 
all-of-the-above energy strategy, as we move forward in 
improving the role that renewable energies play, that we are 
looking to ensure that we can balance all of these resources 
properly, that we don't just have energy available to us when 
the wind blows, when the sun is out, and that we are ensuring 
that the investments we are making in science and technology 
are truly complementary to the assets and the opportunities and 
the innovation in the United States.
    My home State of Louisiana, it has been fascinating, we 
have one of greatest coastal land-loss challenges in the 
Nation. We have lost about 2,000 square miles of our coast. We 
have a very aggressive plan to come in and restore our coastal 
wetlands. One of the biggest impediments to that plan, believe 
it or not--it is not the money, it is not the sediment, it is 
not the fresh water--it is the regulatory process. The very 
process that is designed to protect our environment is actually 
impeding our efforts to restore the environment.
    And I think that we are seeing similar challenges here with 
some of efforts that you are working on, some of the efforts to 
continue to build upon our emissions reduction successes by 
increasing the transition to natural gas in some areas, and our 
ability to transport the natural gas and ability to relay the 
electricity from renewable sources to the areas where it is 
needed.
    So looking forward to having this discussion today, looking 
forward to future discussions on nuclear power, on energy 
storage, on carbon capture storage and utilization and other 
tools that I think are going to be a really important part of 
our overall recommendations from this committee.
    So with that, I will yield back.
    Ms. Castor. Good, and I thank my friend for his statement.
    Without objection, members who wish to enter opening 
statements into the record have 5 business days to do so.
    At this time I would like to introduce our outstanding 
witnesses who are with us today.
    Abigail Ross Hopper is president and CEO of the Solar 
Energy Industries Association. Before joining SEIA, Ms. Ross 
Hopper was the director of the Department of the Interior's 
Bureau of Ocean Energy Management, where she led the agency 
that oversaw the leasing and development of all offshore 
energy, including wind. She served formerly as the director of 
the Maryland Energy Administration.
    Tom Kiernan, president and CEO of the American Wind Energy 
Association. Prior to joining AWEA, Mr. Kiernan was president 
of the National Parks Conservation Association for 15 years.
    Christine Tezak is managing director at ClearView Energy 
Partners. Prior to joining the firm, Ms. Tezak was a senior 
research analyst at Robert W. Baird and Company and a senior 
vice president with the Washington Research Group.
    Katherine Hamilton is chair of 38 North Solutions, a 
consulting firm. Ms. Hamilton is co-chair of the World Economic 
Forum's Future Advanced Energy Technology Global Future Council 
and immediate past president of GRID Alternatives Mid-Atlantic.
    Without objection, the witnesses' written statements will 
be made part of the record.
    And with that, Ms. Ross Harper, you are now recognized to 
give a 5-minute statement.

  STATEMENTS OF ABIGAIL ROSS HOPPER, ESQ., PRESIDENT AND CEO, 
SOLAR ENERGY INDUSTRIES ASSOCIATION; TOM KIERNAN, PRESIDENT AND 
    CEO, AMERICAN WIND ENERGY ASSOCIATION; CHRISTINE TEZAK, 
    MANAGING DIRECTOR, CLEARVIEW ENERGY PARTNERS, LLC; AND 
         KATHERINE HAMILTON, CHAIR, 38 NORTH SOLUTIONS

             STATEMENT OF ABIGAIL ROSS HOPPER, ESQ.

    Ms. Ross Hopper. Great. Thank you very much. Good morning.
    Thank you, Chairwoman Castor, Ranking Member Graves, and 
all of the other members of the committee.
    I am so happy to be here. Thank you for inviting me, thank 
you for your interest in solar energy, and most importantly, 
thank you for your interest in addressing the climate crisis 
that we face.
    As you just heard, I am Abigail Ross Hopper, the president 
and CEO of the Solar Energy Industries Association, or SEIA. We 
really like acronyms in the energy world.
    Before I begin to talk about solar, I just want to sort of 
address one thing that Ranking Member Graves said. I think we 
all are committed to clean, reliable, and affordable energy 
system, right? That is what consumers want, that is what they 
demand, that is what they expect, and I think what you will 
hear today is that is what we can deliver.
    So I am so proud to represent the solar industry. We 
represent about 250,000 Americans who work in the solar energy 
industry, about $17 billion that we invest in this Nation.
    We recently celebrated the two millionth U.S. solar 
installation in May. And while that is all exciting, I would 
invite you to buckle up, because we are about to enter the 
Solar + Decade. Solar generation currently provides about 2.3 
percent of the Nation's electricity generation, but by 2030, we 
think that will be 20 percent. And while that is certainly an 
aggressive goal, I think it is certainly doable, and we 
certainly cannot afford to wait.
    Today the solar industry reduces carbon emissions by 73.3 
million metric tons per year, which is equivalent to taking 
15.6 million vehicles off the road.
    So if we achieve this 20 percent in the next decade, we 
will add more than $345 billion to our economy and 350,000 
additional solar jobs, proving that a clean economy is a strong 
economy.
    So what makes me so confident about our ability to do this? 
Well, it is based partly on what we have accomplished to date. 
At the Federal level, I am going to talk a little bit about 
what has worked.
    The investment tax credit has created hundreds of thousands 
of jobs literally and spurred billions of dollars in economic 
growth. As 2019 ends, the ITC--again another acronym that we 
like--the ITC will begin an annual stepdown that will lead to 
an eventual phase-out of the credit for residential solar and a 
much-reduced credit for commercial and industrial and utility-
scale solar.
    So until Congress passes a carbon tax or comes to some 
consensus on how we address climate change, the ITC is 
literally the most effective policy to deploy clean energy and 
solar energy. So it is not just a pro-solar policy, but it is 
literally a pro-planet policy, and we think it should be 
extended.
    Solar has benefitted from other Federal policies as well, 
including the Public Utility Regulatory Policies Act, or PURPA, 
which encourages the deployment of small-scale renewable and 
cogen. And in addition, Federal solar research plays an 
important role in solar development and continued deployment.
    So at the State level, as the Chairwoman said, there are 
lots of examples. I would point you to my written testimony. 
But I would--I just can't help but also highlight South 
Carolina, because I think it is so illustrative of the 
bipartisan nature of solar energy and renewables in general. 
But just in May, Governor McMaster signed the law that clears 
obstacles, clears away some of the red tape that we have talked 
about, to greater adoption of rooftop solar and also allows 
more large-scale solar. We think it will create jobs and 
encourage investments for all South Carolinians.
    So what are some of the things I would ask you to take a 
look at to help further the deployment? I am going to name 
four, but there is clearly more in my written testimony.
    One, as I said, extend the investment tax credit as we seek 
consensus on a larger carbon policy. We think that is one clear 
thing that Congress can do. Two, I would echo the interest in 
energy storage. That is such a transformative part of this 
transformation to a clean energy economy. And so we think that 
passing support for storage is a critical act that Congress can 
do.
    Third, I would suggest that we invest additionally in our 
electric infrastructure. Our Nation's grid is in dire need of 
upgrade, specifically around transmission and so we can make 
sure we can get the electrons to the folks that need it, and 
then as we think about distributed generation and ensuring that 
our grid is equipped to handle that two-way traffic.
    And then fourth, I would suggest that we need to invest in 
workforce development. Solar does provide well-paying careers, 
and we are going to literally need hundreds of thousands of 
workers in the next decade. We must work deliberatively to 
build an industry that is diverse and inclusive, reaching into 
communities that have not yet benefitted from renewable energy. 
We must ensure that every American has the opportunity to enter 
this sector. And we also support programs that allow veterans 
to transition from military service into solar jobs.
    So I would suggest that the benefits of deploying renewable 
energy and solar specifically are enormous. And as we create 
this clean energy vision, this solar plus vision, solar plus 
wind, solar plus storage, solar plus grid modernization, that 
it will lead to investment, jobs and opportunities.
    So thank you very much for asking me to be here.
    [The statement of Ms. Ross Hopper follows:]
                              ----------                              


   Testimony of Abigail Ross Hopper, Esquire, President & CEO, Solar 
                     Energy Industries Association

 U.S. House of Representatives Select Committee on the Climate Crisis, 
                             June 13, 2019

                              introduction
    Chairwoman Castor, Ranking Member Graves, and members of the Select 
Committee, thank you for inviting me here today and for your interest 
in solar energy.
    I am Abigail Ross Hopper, president and CEO of the Solar Energy 
Industries Association (SEIA). SEIA is the national trade group for 
America's solar energy industry with 1,000 member companies. 
Approximately 250,000 Americans work in the $17 billion solar industry. 
We recently celebrated the two millionth U.S. solar installation in 
May. It took us 40 years to reach the first million installations in 
2016 and only three years to double that number. And buckle up because 
we are about to enter the Solar+ Decade. What do I mean by that? Solar 
generation currently provides 2.3% of our electricity in the United 
States; by 2030, we aim for solar energy to be 20% of the electricity 
generation mix. To get there, SEIA has designated the 2020s the Solar+ 
Decade, recognizing the fact that the industry will need to both 
aggressively pursue policies to facilitate solar deployment while also 
collaborating with other technologies to make it happen.
    Our target is aggressive, but we cannot afford to wait to address 
the climate crisis. That 20%, or something close to it, is what we as 
an industry need to achieve if we are to meaningfully address climate 
change and fulfill our role in keeping global temperature rise below 2 
degrees Celsius. Climate scientists are clear that electricity 
generation plays a large part in carbon emissions. Solar deployment can 
help reduce emissions, support local economies and good jobs, reduce 
air pollution, and provide low-cost energy to American families and 
businesses. The solar industry today, at just 2.3 percent of our 
nation's electricity production, reduces carbon emissions by 73.3 
million metric tons per year. That is the equivalent of taking 15.6 
million vehicles off the road or planting 1.2 billion trees. The carbon 
reduction attributes of solar are significant.
    To reach our aggressive 20% by 2030, we will need to install an 
average of 39 gigawatts (GW) each year through the 2020s. That's up 
from 10.6 GW last year. We'll need an average annual growth rate of 18% 
and cost reductions across all market segments of nearly 50%.
    If we achieve this goal, we will create 350,000 additional jobs and 
build more systems annually than we have installed to date. That means 
there will be a total of 600,000 solar jobs in 2030. That's more 
workers than every single U.S. company except for Walmart, more than 
the utility industry, and more than the mining and oil and gas 
extraction industries combined. And when we grow this workforce, it 
will be with an eye toward diversity and inclusion.
    In this scenario, our industry will add more than $345 billion into 
the U.S. economy over the next ten years, reaching $53 billion 
annually. Our success will prove that climate solutions don't hurt the 
economy, but instead, are some of the strongest economic growth engines 
we've seen in decades.
    Your Committee is charged with a special task--to advise Congress 
on opportunities and policies that exist to help address the climate 
crisis. That's why I'm pleased to be here today representing this 
vibrant industry. Solar offers Americans options and answers on climate 
change, as well as tremendous opportunity for economic growth and job 
creation across the country.
                            what has worked
    How has solar grown so rapidly and successfully? What makes me so 
confident about the Solar+ Decade? Let me share with you a few examples 
of policies that have made a real difference, at both the federal and 
state levels.
Federal
    At the federal level, the leading policy that has led to the 
deployment of solar nationwide is the Investment Tax Credit. To put it 
simply, the ITC has worked and worked well. The ITC has helped to 
create hundreds of thousands of jobs and spurred billions of dollars in 
economic growth. As we come to the end of 2019, we approach an annual 
step-down in the ITC which will lead to an eventual phaseout of the 
credit for residential and a much-reduced credit for commercial and 
utility-scale solar.\1\
---------------------------------------------------------------------------
    \1\ The ITC for both commercial and residential is 30% until Dec. 
31, 2019. Thereafter it steps down to 26 percent in 2020 and 22 percent 
in 2021. After 2021, the residential credit will drop to zero while the 
commercial and utility credit will drop to a permanent 10 percent.
---------------------------------------------------------------------------
    With the solar industry facing cost increases from tariffs and the 
most recent Intergovernmental Panel on Climate Change report indicating 
that rapid decarbonization is necessary to mitigate some of the worst 
effects of climate change, the timing is not right for a stepdown or 
phaseout of this extremely valuable tax credit that spurs increased 
development of renewable energy. Until Congress passes a carbon tax or 
other comprehensive legislation that addresses climate change, the ITC 
is the most effective policy we have to deploy clean energy. In short, 
the ITC is more than just a pro solar policy. It is a pro planet 
policy.
    Solar has also benefitted from other federal policies, including 
the Public Utility Regulatory Policies Act, which encourages the 
development of small-scale renewable and cogeneration facilities. 
Additionally, federal investments in energy research through the 
Department of Energy have long paved the way for commercialization of 
technologies. Federal solar research has made the United States a 
global leader in solar technology development. This includes research 
on battery storage, which is absolutely part of the future of 
additional renewable deployment.
State
    At the state level, there are numerous examples of state policy 
that has accelerated the deployment of solar energy. States like 
Arizona, Texas, Nevada, California, North Carolina, New Jersey and 
Massachusetts have had enormous growth in solar energy deployment, 
largely because of policy incentives and programs that support the new 
development of solar projects.
    One example of effective state policy is renewable portfolio 
standards. In Maryland, for example, the Clean Energy Jobs Act passed 
in 2017, enacting a 25% renewable electricity standard by 2020. This 
legislation was a broad success, prompting the creation of thousands of 
solar jobs. Earlier this year, Maryland doubled down on its commitment, 
raising Maryland's requirement for renewable energy to 50% by 2030, 
including a 14.5% requirement for in-state solar by 2030. This 
legislation had bipartisan support and will continue to catalyze job 
growth and solar development across the state.
    In South Carolina, Governor McMaster signed legislation in May that 
lifted caps on the amount of rooftop solar allowed in certain areas and 
eliminated restrictions on solar-leasing programs. The Energy Freedom 
Act, passed unanimously by the Republican-led South Carolina House and 
Senate, also improves opportunities for utility-scale solar developers, 
including provisions to require the Public Service Commission to review 
and approve rates and terms provided to utility-scale solar facilities 
which will ensure contract terms are reasonable for such projects. In 
addition, the new law will allow large energy customers to negotiate 
directly with renewable energy suppliers and provide for more 
transparency and competition in long-term utility-generation planning.
    In the Midwest, Illinois passed the Future Energy Jobs Act (FEJA) 
in 2016 which aimed to grow the solar workforce in the state. FEJA 
authorized a total of $30 million to develop three clean energy job 
training programs. The Act established a solar installation training 
pipeline. Despite a national trend of contracted solar job growth in 
2018 due in part to solar tariffs, Illinois added over 1,300 solar jobs 
in 2018, and is projected to continue growing.
    California also made headlines last year with its enactment of a 
requirement for newly constructed homes to either have solar panels on 
the home or be connected to a shared solar system that serves multiple 
homes. This code will allow homeowners to experience lower energy bills 
and a projected overall savings when factoring in the cost of the solar 
array. This standard was groundbreaking and will provide immense 
benefits to California and its residents when it goes into effect next 
year.
    Two other policies that have supported residential and small 
commercial solar are net metering and rate design. Net metering, which 
provides a credit to a system owner for power sent to her neighbors, 
has been critical in fostering rooftop markets in many states. 
Similarly, rate design that does not unfairly burden solar owners with 
unwarranted fees and charges simply because they installed solar, will 
be critical to this sector as the industry moves forward. Although 
states with high levels of rooftop solar are rightly beginning to 
explore successors to net metering, we have unfortunately seen actions 
in states with very small rooftop markets that attempt to use rate 
design to stymie a growing industry before it takes hold.
  challenges to faster deployment of solar and policies that can help
    Despite these shining examples of federal and state policies, we 
must acknowledge that our industry still faces major challenges as we 
drive towards 20% of generation. Despite the solar industry's growth, 
future deployment still faces challenges. While the cost of solar has 
dropped dramatically in recent years, added costs from tariffs, 
extended and unpredictable timelines for permitting and 
interconnection, uncertainty about the future of tax policy, slower 
than needed deployment of storage resources, the need for 
infrastructure investment, and workforce needs pose potential 
roadblocks to solar growth across the country. There's a lot at stake 
in getting renewable energy deployment right and facilitating it as 
rapidly as possible. As the Committee considers options to include in 
its report, we recommend your attention to the following:
Extend the ITC as We Seek Consensus on Broader Carbon Policy
    As I mentioned earlier in my testimony, the federal solar ITC has 
been an outstanding success and continues to drive major growth in our 
industry. It has created hundreds of thousands of jobs and, at last 
count, $140 billion dollars of investment. And yet, just as Americans 
demand action on climate change and new markets in areas like the 
Midwest are opening up and growing, the ITC is scheduled to begin to 
step down in its value at the end of 2019, phasing out entirely for 
residential solar by 2022, and falling to just 10 percent for 
commercial and utility-scale solar. This is a challenge for our 
industry and for our climate.
    One thing that Congress can do now that will absolutely help deploy 
renewables faster is to extend the Investment Tax Credit. It's that 
simple. Solar comprises only 2.3% of generation nationwide and we are 
at an inflection point where strong and proven tax policy can make a 
difference in the clean energy economy. In order to get where we need 
to be, and meaningfully cut emissions, the ITC extension is a must. 
Given the focus of Congress on new sources of economic growth and jobs, 
as well as renewed spirit in genuinely addressing climate change, now 
is not the time to diminish support for a core part of U.S. climate 
policy. SEIA is also participating in ongoing conversations in Congress 
about broader climate policies through the tax code--from next 
generation tax credits, such as a technology neutral tax credit, which 
we have endorsed, to thinking critically about a carbon tax that 
appropriately prices the externalities of energy generation. As an 
organization, we are generally supportive of these approaches and think 
they would comprise a wholistic approach to carbon policy.
    However, until there is bipartisan consensus on what comes next to 
tackle our climate challenges, we urge Congress to use the proven tools 
it has available. The stakes are far too grave. Tax credits like the 
solar ITC work and will continue to work if extended. Let's put it in 
perspective--as mentioned earlier, the solar industry today, at just 
2.3 percent of our nation's electricity production, reduces carbon 
emissions by 73.3 million metric tons per year. That is the equivalent 
of taking 15.6 million vehicles off the road or planting 1.2 billion 
trees. Just imagine the impact solar energy can have in the future if 
we reach our goal of 20 percent of electricity generation by 2030.
Invest in Energy Storage
    Energy storage coupled with solar will be a critical part of 
achieving 20% solar by 2030. Solar + storage is the future of our 
industry and vitally important for getting more solar on the grid. 
Storage can ensure that the solar resource can be optimized and provide 
the reliability required on the grid. Already, solar + storage projects 
are being built across the country in residential, commercial and 
utility-scale contexts. In fact, major corporations like Target and 
Wal-Mart have made significant investments in solar + storage in recent 
years.\2\
---------------------------------------------------------------------------
    \2\ Solar Means Business, Solar Energy Industries Association. 
Available at https://www.seia.org/solar-means-business-report.
---------------------------------------------------------------------------
    The Energy Storage Association forecasts that we will reach 35 GW 
of new storage by 2025.\3\ That has far-reaching implications for solar 
and other renewables. However, energy storage needs support to grow and 
deploy as rapidly as we need.
---------------------------------------------------------------------------
    \3\ 35X25: A Vision for Energy Storage, Energy Storage Association. 
Available at http://energystorage.org/vision2025.
---------------------------------------------------------------------------
    Congress can help by facilitating energy storage research and 
deployment through research funding, infrastructure, and tax policies, 
like the current bipartisan legislation that will codify storage within 
the Investment Tax Credit. As our nation becomes more energy 
independent, eliminating the 70% cliff for storage under the solar ITC 
or full ITC treatment for storage will help integrate renewable energy 
resources into the larger utility network. Infrastructure legislation 
can incentivize integrating storage on the grid. Federal research 
dollars can also help support the development of the next generation of 
energy storage technology we will need to continue to deploy more 
renewables.
Foster Trade Policies that Support Renewable Energy
    Americans now pay more for solar panels than the rest of the world. 
Last year, President Trump imposed tariffs on most imported solar 
modules and cells. These tariffs raised prices of panels by 30% in 
2018, and, despite the rate of tariff stepping down annually, will 
remain an added cost of panels and cells for developers of solar 
projects across the United States.
    This policy was a major challenge for SEIA's member companies and 
the industry. Not surprisingly, the industry saw a contraction in 
deployment, investment, and hiring as a result of the price uncertainty 
and increases that the Section 201 trade case imposed over 2017 and 
2018. As a result of the tariffs, solar lost 8,000 jobs as well as 
potentially 10,000 more jobs that were never created. We deployed 2 GW 
fewer than we had expected, and the American economy lost out on 
billions of dollars of potential investment. Trade policies must 
support deployment of clean energy and not create roadblocks.
Maintain and Expand Competition in Electricity Markets
    Congress and regulatory agencies need to maintain and expand 
opportunities for competition in electricity markets. In places still 
served by vertically integrated utilities, discriminatory 
interconnection practices and other anti-competitive behavior must not 
be tolerated. Congress should maintain the regime established by PURPA, 
under which qualifying facilities bring competitive pressure when they 
can serve load for less than the utility's avoided costs. Attacks on 
PURPA are attacks on competition; any changes made to PURPA should 
enhance competition, not stifle it. The Federal Energy Regulatory 
Commission (FERC), with strong oversight from Congress, should ensure 
that PURPA is implemented in a transparent and non-discriminatory 
manner, and that adequate enforcement follows any improper action on 
the part of utilities or their state regulators.
    In regions with wholesale electricity markets, competition must 
expand to include storage assets and distributed energy resources to 
bid into and fully participate in those electricity markets. FERC has 
taken some initial steps with Order No. 841, which addresses storage 
assets, but we are still waiting for similar action to establish the 
participation rules by distributed energy resources.
    Overall, we must have wholesale market rules that value all the 
services that solar--whether connected to the transmission or 
distribution grid--can provide, from energy to frequency regulation, 
and that anticipate a future with solar + storage resources. Of note, 
FERC's recently finalized storage rule does not require regional 
transmission organizations (RTOs) to identify how they will 
interconnect and accommodate bids from solar + storage resources. This 
gap must be remedied soon, as the private sector is already deploying 
assets in this configuration. Capacity market rules must fairly account 
for solar and solar + storage assets. FERC and RTOs should resist calls 
to support aging, uneconomic generation resources with out-of-market 
payments. Even the rules that govern who is allowed to participate in 
RTO stakeholder processes merit review. In a recent decision, FERC 
rightly concluded that certain rules for stakeholder participation 
constitute a barrier to entry for generators and small load-serving 
entities, and are therefore unjust and unreasonable and must be 
changed.\4\ Congress and FERC must continue to ensure robust 
competition in all wholesale markets, as we know competition delivers 
lower costs to end-use consumers.
---------------------------------------------------------------------------
    \4\ See American Wind Energy Association and The Wind Coalition v. 
Southwest Power Pool, Inc., 167 FERC para. 61,033 (April 18, 2019).
---------------------------------------------------------------------------
    Finally, there is room for more competition at the retail level, 
too. We see corporate buyers and homeowners choosing more solar every 
year; it is critical that customer demands can be easily met by solar 
generation.
Invest in Electric Infrastructure
    Our nation's electric grid is in dire need of upgrades, and a push 
to electrify the economy necessitates additional investments in 
generation, transmission, and distribution lines. The United States 
needs massive infrastructure investment to update the grid, improve 
resilience, and expand transmission. We need to modernize the grid to 
allow for distributed energy assets to be better integrated and we need 
to build more transmission infrastructure to allow for more utility-
scale solar to be delivered. Moving clean electricity from remote areas 
onto the grid is a key component of our ability to deploy more 
renewable energy. One of the primary barriers to solar is the lack of 
transmission capacity serving areas with quality utility-scale solar 
resources which are often located in remote rural areas. As demand for 
electricity grows, transmission will become a more critical issue. 
Leadership is required to create coordinated and cooperative planning 
efforts to ensure transmission capacity for renewable energy generation 
resources like solar. The federal government can also develop guidance 
and information-sharing portals that make it easier for solar to 
connect to the distribution grid and reduce interconnection wait times.
    As the transportation sector is further electrified, federal 
policies should also support using renewable energy to power surface 
transportation infrastructure like the many new charging stations that 
will be required. These stations must be in every community and take 
into consideration existing community assets and accessibility.
Analyze Renewable Portfolio Standards
    As we have seen in the states, renewable portfolio standards help 
to spur considerable investment in renewable energy. More than half of 
all U.S. states have some type of renewable portfolio standard or goal 
in place. Most state targets are between 10% and 45%, but a growing 
number, including California, New York, and New Jersey, to name just 
three, have requirements of 50% or greater. Several pieces of 
legislation exist to create Renewable Portfolio Standards at the 
federal level. If Congress chooses to consider a federal standard, we 
know solar energy will be an important part of any proposed solution.
Cut Red Tape
    In some states, installing solar is becoming as common as getting a 
new air conditioner. While installing solar is routine, safe and 
simple, the process of getting permits, inspections and permission to 
interconnect a solar system can often stretch into months. These delays 
drastically increase the cost of solar deployment compared to other 
developed countries such as Australia and Germany.
    We can do better and are working to improve these processes in the 
United States, but it is a big challenge that needs support from the 
federal government. The United States has about 15,000 different 
permitting jurisdictions and about 3,000 electric utilities that all 
have their own processes, leading to a highly fragmented and 
inefficient business environment. To meet our climate goals, we need to 
drastically streamline these permitting processes to cut as much as 40% 
off the cost of rooftop solar energy systems. Congress can assist by 
funding research and initiatives that create voluntary streamlined 
permitting for solar.
Modernize Policies around Federal Property and Lands Management
    The federal government must also look at policies to improve 
permitting for solar projects on federal lands and make additional 
opportunities available for solar investment in areas that may be 
challenging. One of the great things about solar is that it can be 
installed in a variety of places--rooftops, in fields, and even on 
previously-developed property known as brownfields. EPA has a 
Brownfields Program that provides grants and technical assistance to 
sustainably reuse contaminated property, and several states have 
similar offerings, including Massachusetts, New Jersey, New York.
    Federal buildings can also benefit from solar and save taxpayers 
money. But additional reform is needed for federal contracting 
practices that often prevent federal buildings from installing solar. 
An unintended consequence of the current federal acquisition law is the 
limited authority of the executive branch to enter into long-term clean 
energy contracts. For example, most federal agencies cannot enter into 
Power Purchase Agreements (PPA) with terms longer than 10 years. 
Unfortunately, this truncated timeline hinders the financial viability 
of projects that could reduce federal energy costs, meet clean energy 
requirements, create jobs and promote energy security for the country's 
most important missions.
Invest in Workforce Development
    Solar is also limited by the ability to attract, train and retain a 
skilled workforce that can meet the industry's growing demands. In the 
future this issue will become even more dire. For example, rural areas 
have available land needed to develop utility-scale solar projects. But 
these companies have challenges building the robust workforce needed to 
construct a large solar array, making it difficult to expand solar to 
new areas or markets.
    Solar jobs are well-paying careers. In fact, eight states such as 
Florida, California, and New Mexico list solar installer as their 
fastest growing job, according to the Bureau of Labor Statistics. 
Construction workers, project managers, electricians, and engineers are 
in high demand and labor requirements for a solar project can vary 
state to state.
    Both solar-specific job training and the workforce itself are 
needed to build the solar needed to reduce emissions from the energy 
sector and spread the economic benefits of solar to communities across 
the country. SEIA is also leading work to make sure that as the solar 
industry grows, we deliberately reach into communities that have not 
benefitted from renewable energy in the past, to train workers, and 
bring jobs, economic investment, and clean solar energy opportunities 
to every zip code. SEIA recently co-published with The Solar Foundation 
the 2019 Solar Industry Diversity Study as well as a companion guide on 
diversity best practices.\5\
---------------------------------------------------------------------------
    \5\ The Solar Foundation and SEIA, U.S. Solar Industry Diversity 
Study. Available at: https://www.thesolarfoundation.org/diversity/.
---------------------------------------------------------------------------
    Congress should support policies that make training for renewable 
energy jobs more accessible to a wide range of people and communities. 
SEIA is also working on a diversity initiative through Historically 
Black Colleges and Universities to ensure there's a pipeline of strong 
candidates in a range of disciplines that are ready to join the solar 
workforce. Workforce policies can also build on the skills of veterans, 
many of whom have grown familiar with solar through their service in 
the military. Additional policies and programs, like Solar Ready Vets, 
can help facilitate the transition from military service to clean 
energy jobs.
Incentivize Solar on New Construction
    Building codes have made new homes and buildings safer, more 
comfortable and efficient. The next step in building evolution is 
solar. Solar can help meet the energy needs of new homes and make home 
ownership more affordable. Including solar on new construction may be 
the most cost-effective way to build residential solar and can cost 
less than a dormer window or granite countertops. Including solar on 
new construction saves homebuyers the extra costs associated with 
retrofitting solar after construction. Unfortunately, the most recent 
model building energy codes penalize the use of solar as a compliance 
measure. This imposes unnecessary costs for homebuyers. Congress can 
explore ways to eliminate barriers and incentivize solar on new 
construction to save energy and costs down the line.
Support Clean Energy for All Communities
    Too often, renewable energy has not been available to help every 
community, particularly those that are low-income, urban or rural. 
Leadership and investment are necessary to make sure that every 
community is included in the clean energy economy. The benefits in 
terms of cleaner air, jobs, economic investment and resilience will far 
outweigh any initial cost.
    Community anchor institutions, such as schools, community centers, 
libraries, post offices and other public buildings can play an 
important role in meeting renewable energy goals. While some of these 
institutions are already using solar, much more can be done. The 
federal government can provide incentives for additional solar 
installations on these buildings, which not only create an added layer 
of resilience to communities, but also reduce costs to the local 
taxpayer through energy savings.
    We also urge the Committee to recommend support for community solar 
deployment, which makes solar energy available to people who cannot put 
solar on their own homes or who live in multi-unit dwellings. In 
addition to streamlining interconnection processes and upgrading the 
distribution system to allow for more deployment of distributed/
community solar (both of which are discussed above), the federal 
government can incentivize states to develop their own community solar 
programs by providing technical assistance and funding.
    Low-income energy assistance programs to help families install 
solar will also help ensure that every American has access to clean, 
renewable energy. These programs can be vital for bridging gaps for 
communities to benefit from clean solar energy. Investments that help 
low-income communities benefit from solar help make sure that no 
community is left behind in the clean energy economy. Such programs 
also ensure we remedy the mistakes of the past, when low-income 
communities too often bore the brunt of the environmental costs of more 
traditional energy production and distribution.
    Rural America and our nation's farmers also benefit from solar 
energy. SEIA supports the Rural Energy for America Program (REAP) 
within the Department of Agriculture. This program can help farmers 
reduce input cost with a range of renewable energy options, including 
wind and solar. At a time when many agricultural producers are 
struggling, REAP creates additional revenue streams and helps support 
farmer incomes. Some farmers have even begun to co-locate their solar 
investments with other forms of agriculture production, including sheep 
grazing and beekeeping.
    The Committee must also be certain to consider the unique energy 
needs of Native American tribes and people living on tribal lands. 
Policies should be supported that center tribal members in the 
development and execution of renewable energy projects and help tribes 
benefit from the jobs and economic opportunities that come with them. 
This is especially critical in communities that have historically 
focused on fossil fuel extraction and where many jobs are at stake. 
Solar projects already exist on tribal lands to provide solar jobs and 
solar energy. Two such examples include a project Swinerton Renewable 
Energy is working on with the Navajo Nation in Kayenta, Arizona, and 
the work of a company called Native Renewables to both provide clean 
electricity to the Navajo Nation and create sustainable energy 
knowledge among all age groups. With additional support for hard and 
soft costs, microgrid development, job training and technical 
assistance, Congress can help speed deployment on Native lands across 
the United States.
                               conclusion
    The benefits of deploying additional renewable energy are enormous. 
Together, our technologies will provide options for clean energy, offer 
solutions on climate change, grow the economy, and create hundreds of 
thousands of jobs.
    Over the next 10 years, the Solar+ Decade will be about 
collaboration and building the partnerships and expertise needed to 
overcome systemic challenges preventing the widescale adoption of 
solar. To achieve this goal, solar, wind and storage must work together 
to transform a complex and interrelated world of markets, customers and 
electricity systems.
    It is incumbent upon renewable industries to create a shared clean 
energy vision. It won't be just the Solar Decade, but the Solar+ Decade 
where Solar + Storage, Solar + Grid Modernization, Solar + Wind, and 
Solar + Overwhelming Public Support combine to define our nation's 
clean energy future.
    Renewable energy industries like solar, wind and storage must work 
together to aggressively pursue policies to deploy more renewables on 
the grid and increase access to consumers and businesses looking to 
lower their energy costs across the country. Together, we'll write a 
new story for American energy in the 2020s. We invite Congress to join 
us in sharing this vision. I am confident that together we will provide 
countless benefits to the American economy and the American people 
while also creating a livable climate for future generations.
    I thank you for this opportunity to testify before the Select 
Committee on the Climate Crisis. I look forward to answering any 
questions you may have.

    Ms. Castor. Thank you very much.
    Mr. Kiernan, you are recognized for 5 minutes.

                    STATEMENT OF TOM KIERNAN

    Mr. Kiernan. Chairwoman Castor, Ranking Member Graves, 
members of the committee, thank you very much for the 
opportunity to testify.
    Again, Tom Kiernan, CEO of AWEA, pleased to represent our 
roughly 1,000 members in the full spectrum of the supply chain 
of the wind industry.
    In summary, wind energy is an American success story. We 
have grown now to 114,000 jobs, and the wind turbine technician 
is either number one or number two fastest growing profession 
over the last three years. We are kind of dueling it with the 
solar technician. So we are thrilled with the career growth 
opportunities in our industries.
    We are also pleased that we are helping to lower the cost 
of electricity for consumers. Per Lazard, wind energy is the 
cheapest source of new electricity, and in many parts of the 
country, actually new wind is cheaper than the marginal cost of 
existing generation.
    We are also in all 50 States and in 70 percent of all of 
the congressional districts, whether it is one of our 500 
manufacturing facilities or one of our 54,000 turbines 
throughout the country.
    And lastly, as far as this American success story, we are 
thrilled that we are reliably on the grid. There are six States 
that have currently have over 20 percent of all of their 
electricity provided by wind energy. SPP, one of the larger 
regions, recently reported that last year 24 percent of all 
their electricity was wind energy, and there are times of day 
this last year where 50, 60, or 65 percent of all the 
electricity in some States or regions was provided reliably by 
wind energy.
    What I want to do this morning is first share a couple of 
the policies that have led to this American success story and 
then share a couple of policies that we would suggest to add to 
that list.
    First policies that have succeeded, the production tax 
credit. The PTC has been and is an important mechanism for the 
wind industry to access capital. I am sure you well remember 
the December 2015 5-year agreement, bipartisan agreement, to 
phase down the PTC. And that 5-year, multi-year clarity and 
certainty of policy is one of the key reasons that we have more 
wind under construction now than we have ever had before, 
because of that clarity in policy and certainty. So the PTC 
first.
    Second, renewable portfolio standards. There are currently 
in 29 States and DC RPS policies, and eight additional States 
have renewable energy goals. And both of those are important 
drivers for our industry.
    It is also important to note that an RPS does not handpick 
a technology. Rather, all renewables are able to compete to 
incentivize cost reductions and efficiency gains in homegrown 
electric sources.
    The third policy I want to point out that has been so 
helpful, in addition to PTC and RPS, State procurement for 
offshore wind. We have got world class wind resources onshore 
and offshore, especially off the East Coast and very much 
though in the Great Lakes and off the West Coast.
    States like Maryland, Massachusetts, New Jersey, New York, 
Rhode Island, and others have set procurement requirements, and 
these are vital drivers for our blossoming offshore wind 
industry.
    Now, with those three, let me talk about some of the 
barriers we have going forward and some of the policies that we 
need to add to those first three.
    First, we have an old and inadequate transmission system. 
Electricity is the lifeblood of a modern U.S. economy, yet our 
grid is old and in need of investment. Three quick datapoints 
on that. Consumers currently are paying $6 billion every year 
in, in essence, congestion costs, because they are not able to 
get the inexpensive, affordable clean wind energy from where it 
is generated to load, because we don't have sufficient 
transmission. That is point one.
    Point two, American Society of Civil Engineers gave our 
grid a D-plus. That is not the grid you want to build the 
future modern economy on a D-plus grid.
    Lastly, SPP and MISO have both found that the benefits of 
transmission are three times greater than the cost of those 
upgrades.
    So a solution for Congress is to direct FERC to create 
workable policies in what we have referred to as the three Ps 
of transmission: How to plan for it, how to pay for it, and the 
permitting of transmission.
    The second policy I want to talk about that we need to 
address is creating an implicit or explicit price on carbon. 
Currently different energy technologies receive varying levels 
of support across different time periods without any unifying 
policy rationale. A simple way to fix this barrier is for 
Congress to put a price on carbon, whether explicitly or 
implicitly, so that carbon is appropriately valued and so 
electric generators have a level playing field to compete. And 
one such example is a technology-neutral tax incentive, among 
many ways of getting at that.
    So to summarize, policies that have been beneficial, the 
PTC, renewable portfolio standards, and procurement policies 
for offshore wind. And we would add to that list, to address 
these barriers, transmission policies and a price on carbon.
    Thank you very much.
    [The statement of Tom Kiernan follows:]
                              ----------                              


   House Select Committee on the Climate Crisis, Solving the Climate 
              Crisis: Ramping Up Renewables, June 13, 2019

  Testimony from Tom Kiernan, President and CEO, American Wind Energy 
                              Association

    Chairwoman Castor, Ranking Member Graves, Members of the Select 
Committee, good morning. It is my privilege to be here today on behalf 
of the 114,000 men and women working in the U.S. wind industry. I look 
forward to discussing the tremendous contributions American wind power 
is making, and how we can continue growing as part of the solution to 
the climate crisis. As the President and CEO of the American Wind 
Energy Association, I am proud to represent our 1,000+ member companies 
with a common interest in encouraging the expansion of wind energy in 
the United States. Our members include wind turbine manufacturers, 
component suppliers, project developers, project owners and operators, 
financiers, researchers, utilities, marketers, customers, and their 
advocates. Today wind energy is lowering the cost of electricity for 
American families and businesses, enhancing rural economies, and 
actively reducing U.S. emissions. Wind energy is an American success 
story, providing jobs, investment, manufacturing and economic and 
environmental benefits across the country. A few highlights:
          <bullet> Today a record 114,000 Americans spread across all 
        50 states have jobs supporting the wind industry.
          <bullet> Over 500 American factories in 42 states build many 
        of the 8,000 parts found in a modern wind turbine.
          <bullet> The industry is proud to hire America's veterans at 
        a rate 67 percent higher than the national average.
          <bullet> At least 69 percent of U.S. congressional districts 
        have either an operating wind farm or wind-related factory, or 
        both.
          <bullet> The U.S. now has 97,223 MW of installed wind 
        capacity, enough to power over 30 million homes. Wind supplied 
        6.5 percent of the country's electricity in 2018.
          <bullet> At the state level, six states now generate at least 
        20 percent of their electricity using wind.
          <bullet> In 2018, the U.S. wind industry invested $12 billion 
        in new projects and paid over $1 billion in state and local 
        taxes and landowners lease payments.
          <bullet> As wind technology advances we're experiencing 
        previously unseen levels of productivity. Wind farms built over 
        the last five years have seen average annual capacity factors 
        of 40 percent, with some individual projects in more recent 
        years achieving over 50 percent, on par with certain types of 
        conventional power plants.
          <bullet> The U.S. offshore wind industry is primed to scale 
        up. At the end of 2018, the U.S. had a potential offshore wind 
        pipeline of over 25,700 MW spanning 10 states in the Northeast, 
        Mid-Atlantic and Great Lakes regions.
              policies that have helped deploy renewables
    Federal and state policies--such as the production tax credit 
(PTC), state renewables portfolio standards, state procurements for 
offshore wind, and funding for Department of energy R&D--have helped to 
spur wind energy development.
                         production tax credit
    Just as tax treatment for other energy sources has enabled growth 
and development, the PTC is an incentive that helped wind developers 
access the capital needed to build new wind projects. This incentive is 
phasing out this year. The PTC helped launch the wind industry as we 
know it. However, at times a lack of policy certainty around the PTC 
hampered the growth of American wind power. For many years, Congress 
cycled through the tax credit in one or two-year stints and allowed it 
to expire multiple times. This cyclical pattern resulted in boom-bust 
cycles of development. In December 2015, with strong bipartisan 
support, Congress agreed to an orderly phaseout of the PTC. This multi-
year policy certainty created a business environment primed for growth, 
where investments in people, infrastructure, and manufacturing took 
hold.
                  state renewable portfolio standards
    State renewable portfolio standards (RPS), policies that require 
electric utilities to gradually increase the amount of renewable energy 
that they deliver to their customers, have also helped spur the 
development of this robust industry. By design, an RPS does not hand 
pick a technology; rather all renewables are able to compete, 
incentivizing cost reductions and efficiency gains. As a result, RPS 
policies encourage the growth of additional homegrown electricity 
sources that diversify our energy portfolios, spur local economic 
development and job creation, reduce pollution, cut water consumption, 
and save consumers money.
    Today, 29 states plus the District of Columbia have RPS policies in 
place, while another eight states have non-binding renewable energy 
goals. State RPS targets range widely from 10 percent to 100 percent 
renewable energy. Many states have been expanding their targets in 
recent years and several others are considering future increases, 
showing the success of RPS programs to date. Historically, wind energy 
has been the top renewable energy technology of choice to meet RPS 
targets, accounting for 64 percent of all RPS-related renewable 
capacity additions to date.
    Most importantly, the impact of RPS policies on consumers has been 
minimal, with many actually seeing lower electric bills because of 
them. Because wind's costs have fallen by 69 percent since 2009, it's 
the cheapest source of new electric generating capacity in many parts 
of the country.
                  state procurement for offshore wind
    The U.S. has a vast offshore wind energy resource, possessing a 
power potential of more than 2,000 gigawatts (GW), nearly double the 
nation's current electricity use. This potential presents an enormous 
opportunity to deliver large amounts of clean and reliable electricity 
to the country's largest population centers, where it's needed most.
    With world-class wind resources on the East and West Coasts and in 
the Great Lakes, infrastructure, and offshore energy expertise, the 
U.S. is primed to scale up offshore wind power. The U.S. Department of 
the Interior is charting a path forward for additional offshore wind 
lease areas. That will transform offshore wind's enormous potential 
into a concrete pillar of American energy dominance while spurring new 
manufacturing and shipbuilding.
    State policies that require the purchase of offshore wind in 
Maryland, Massachusetts, New Jersey, New York, Rhode Island, and others 
are vital drivers for the offshore wind industry. These policies will 
help achieve scale and develop an American supply chain. With stable 
policy in place, the Department of Energy found that the U.S. could 
install a total of 22,000 megawatts (MW) of offshore wind projects by 
2030 and 86,000 MW by 2050, creating thousands of well-paying jobs in 
coastal communities. A recent study by the University of Delaware's 
Special Initiative on Offshore Wind projects America's growing offshore 
wind industry represents a $70 billion capital expenditure revenue 
opportunity for businesses in the offshore wind power supply chain over 
the course of the next decade. And according to a study from the 
Workforce Development Institute, 74 different occupations are needed to 
build, operate and maintain an offshore wind farm.
             impediments to growth in wind energy industry
    The difficulty in building transmission, the lack of a level 
playing field for all renewables, and the introduction of tariffs on 
the wind energy industry are impediments to the continuation of a 
robust industry.
                              transmission
    Electricity is the lifeblood of the modern U.S. economy. The 
ability to get electrons from where they are generated to where they 
are consumed is essential to virtually everything Americans do. Yet, 
our electricity grid is aging and needs sustained attention and 
investment in order to provide reliable, affordable service to families 
and businesses. Consumers currently pay approximately $6 billion in 
annual transmission congestion costs. In fact, the American Society of 
Civil Engineers rates the country's electric grid an unacceptable D+.
    Transmission provides dozens of quantifiable benefits, such as 
facilitating access to lower-cost electricity generation, reducing the 
need to build additional generation to hold in reserve, facilitating 
robust electricity markets, providing economic development and jobs, 
and helping meet public policy requirements, among other benefits. In 
short, expanding transmission access provides consumers with lower cost 
electricity while enhancing the reliability and resiliency of our power 
system.
    Fortunately, dozens of studies from across the country show that 
transmission line investments pay for themselves many times over by 
reducing electric bills, and real-world examples bear this out:
          <bullet> SPP found that the transmission upgrades it 
        installed between 2012 and 2014 created over $16 billion in 
        gross savings--3.5 times greater than the cost of the 
        transmission upgrades.
          <bullet> MISO found that recent transmission investments will 
        provide $12 to $53 billion in net benefits over the next 20 to 
        40 years, or between $250 and $1,000 for each person currently 
        served by MISO--2.2 to 3.4 times greater than the cost of the 
        transmission.
    Wind energy continues to be the lowest-cost source of new 
generation in many parts of the country, even compared to rooftop 
solar. Wind is also one of the most cost-effective means to reduce 
carbon emissions, and cut 43 million cars' worth of carbon emissions in 
2018 alone. Transmission is critical to accessing this reliable, low-
cost, location-constrained zero-carbon resource. When congestion occurs 
on the transmission system, wind generators are sometimes curtailed, 
which means that more expensive and dirtier generation is dispatched to 
meet customers' demand. With a robust transmission grid, regional grid 
operators can cost-efficiently and reliably balance variable resources 
across diverse geographic areas, allowing carbon reduction to be more 
cost-effective.
    The key to expanding and upgrading the transmission grid is 
workable policies for how transmission is planned, paid for, and 
permitted. In 2011, the Federal Energy Regulatory Commission (FERC) 
took an important step in the right direction with Order No. 1000, 
which established further requirements and principles related to how 
transmission is planned and paid for on a regional and interregional 
basis. While Order No. 1000 made some strides, more must be done to 
ensure efficient and cost-effective transmission solutions are 
available. Congress should encourage FERC to take steps to better 
deliver on Order 1000's promise and ensure a regulatory environment 
that incents transmission infrastructure, aligning it with the future 
needs of the grid, such as meeting climate goals.
        the cost of carbon emissions is not reflected in markets
    The societal cost of emitting carbon is not currently captured in 
today's markets. Pricing carbon dioxide, especially on the national 
level, would remedy this market failure. Society faces a dual energy 
challenge: we need to expand energy supplies to support economic growth 
and improve living standards, and we must do so in a way that addresses 
the clear risk posed by carbon emissions contributing to climate 
change. Fortunately, these goals are not mutually exclusive because of 
the rapid decline in zero-emitting technology's costs, in particular 
renewable energy.
    Strong and consistent policy signals at the national, regional and 
state levels that internalize the cost posed by carbon emissions can 
promote a smooth and affordable transition to a cleaner, more 
sustainable, economy.
                         unlevel playing field
    In absence of broad federal policy, the U.S. tax code has been a de 
facto source of energy policy for the last century, but the numerous 
energy-related incentives in the tax code have made the energy tax 
landscape unnecessarily complex. Different energy technologies still 
receive varying levels of support across divergent time periods without 
a unifying public policy rationale and fairness across the 
technologies. Congress should further simplify energy tax policy and 
create a level playing field by providing a widely applicable, 
transferable technology neutral tax incentive, based on carbon 
emissions, that thereby puts an implicit or explicit price on carbon to 
build our economy and lower prices for consumers. There are multiple 
legal and regulatory approaches that can accomplish this goal. This 
approach would create a more level playing field among energy 
generation technologies. Further, the clear goal of greenhouse gas 
reductions forming the basis of the credit would provide a stable 
incentive that increases business certainty.
                                tariffs
    The U.S. wind industry supports 114,000 high-paying jobs spread 
across all 50 states, many at more than 500 factories that build wind-
related parts. While AWEA appreciates the administration's actions to 
remedy unfair trade practices and increase American competitiveness, 
the enacted high and sweeping tariffs on products and component parts 
used in wind energy development will substantially increase the cost of 
doing business for U.S. wind energy developers. This hurts U.S. 
manufacturers and makes energy less affordable for the millions of 
Americans who rely on wind power to provide affordable energy. It also 
hampers the administration's progress on goals concerning U.S. economic 
development, energy dominance, infrastructure improvements, job 
creation, and support for rural communities. The potential increase in 
wind energy's costs and, in turn, the potential reduction of future 
wind deployment, if the Section 301 and Section 232 steel and aluminum 
tariffs are not soon lifted, will:
    1. Eliminate thousands of American jobs, mostly in rural America 
where these jobs are desperately needed; including the loss of domestic 
manufacturing jobs as the wind industry reduces U.S. manufacturing of 
wind components in states like Colorado, Texas, and Ohio; and
    2. Devastate already struggling farming and ranching families in 
states like Iowa, Kansas, Oklahoma, North Dakota, and South Dakota, who 
count on turbine land-lease payments as a drought-resistant cash crop.
    I appreciate the opportunity to participate in the conversation on 
how to continue the growth of wind energy and contribute to addressing 
the climate crisis.

    Ms. Castor. Thank you.
    Ms. Tezak, you are recognized for 5 minutes.

                  STATEMENT OF CHRISTINE TEZAK

    Ms. Tezak. Thank you, Chairman Castor, Ranking Member 
Graves, and distinguished members of the committee.
    My name is Christine Tezak, and I lead the power, 
pipelines, and environmental policy practice at ClearView 
Energy Partners, LLC. We are an independent research firm here 
in Washington that serves institutional investors and corporate 
strategists.
    Thank you for inviting me here to contribute to your 
important discussion regarding the growth of renewables in the 
U.S. power portfolio. I am grateful for your diligent 
consideration of climate issues on behalf the Nation's 
citizens, corporations and stakeholders.
    As mentioned earlier by Ranking Member Graves, USEIA 
calculates that U.S. electric power sector carbon dioxide 
emissions declined 28 percent since 2005 due to a slower 
electricity demand and changes in the mix of fuels used to 
generate power. This occurred for a variety of reasons.
    Our resource base has limited nuclear and hydropower 
capability relative to the other G20 nations, as we showed in 
figure 1. So building renewable capability that nature didn't 
provide can help us make further improvement.
    Second, as mentioned already, State renewable portfolio 
standards support and accelerate renewable deployment. 
Individual States establish targets and mandates directing 
their utilities to procure renewable energy resources based on 
a percentage of energy delivered over the course of a year.
    We summarize these programs in figure 2. Structuring these 
programs as targets to meet overall needs is important, as 
power requirements often differ on an hourly, daily, and 
seasonal basis.
    Third, solar contributed 14 percent of California's needs 
in 2018, leading the Nation's organized markets as we showed in 
figure 3. But natural gas has been important in balancing 
renewable power variations. Non-hydro renewables provided 26.6 
percent of the gigawatt hours consumed in the Golden State last 
year. However, the top 50 demand hours, California continued to 
rely heavily on in-State natural gas resources, even as 
renewable resources shouldered a larger share of demand at peak 
times.
    In 2018, 48 percent of California's top 50 peak hour needs 
were met by in-State gas plants. That is down from the 53 
percent average over 2015 to 2017, yet natural gas is still 
needed to keep the lights on, as we illustrated in figure 4.
    So far in 2019, wind is up to 25 percent of daily power 
needs in SPP. Wind output over the last 12 months is--moves 
over a range, though, from a low of 148 megawatts to a high of 
16-and-a-half gigawatts. The maximum one-hour ramp observed to 
date is 3.7 gigawatts, and the largest swing in production was 
a drop of 14.8 gigawatts over 18 hours. Natural gas and coal 
resources ramped up and down to meet the shifts in wind 
production. Both markets have a significant number of new 
renewable projects planned.
    To meet State level climate objectives, we expect electric 
storage technologies to help provide the balancing needs that 
natural gas plants currently provide. Natural gas sector 
participants continue to explore carbon capture and 
sequestration or beneficial reuse technologies. Currently, 
storage alternatives are more expensive than installed and new 
natural gas units but are growing swiftly off a small base.
    Last week, former Mayor Bloomberg called for closure of the 
Nation's remaining coal plants by 2030 and opposes construction 
of new natural gas plants in an effort to address climate 
change on an even shorter timeline envisioned by the State 
programs that Chairman Castor already mentioned.
    We built a cursory estimate of generation plant costs alone 
required to replace the 1.15 terawatt hours of electricity 
provided by coal facilities in 2018. Our assumptions are 
detailed in my testimony.
    But assuming equal shares of wind, solar, and biomass, with 
storage to complement wind and solar only, our rough estimate 
implies as much as a $941 billion in plant-related CapEx alone 
to meet this objective at today's prices.
    To fund such a broad societal goal, we looked at the 
potential impact of increasing electricity rates through the 
addition of a one cent per kilowatt hour surcharge. This 
approach could provide a modest level of funding but would have 
disparate rate impacts. That means bill increases of 3 to 11 
percent, given differences in underlying costs of power in each 
State and differences in average consumption, as we show in 
figure 6. Therefore, reducing the cost of the transition 
appears very worthy of policymaker consideration.
    Continued use of natural gas and progress on current State-
identified timelines could meet power needs while delivering 
substantial emissions improvements, potentially at a lower 
cost.
    Our firm sometimes frames energy security in three 
dimensions: Adequacy, attributes, and affordability. Our 
experience is that affordability can be a real-world constraint 
when it comes to policy formation. Put it another way, focusing 
on attributes to the exclusion of affordability can undermine 
security and program durability. We suggest that natural gas 
may still have a key role to play as the Nation deploys an 
increasing number of low-emitting resources to our portfolio.
    I have also put in our testimony a 10-year analysis of the 
fuel mixes in each State for the members of the committee.
    Madam Chair, this concludes my summary, and I look forward 
to your questions.
    [The statement of Ms. Tezak follows:]
                              ----------                              


 Testimony of Christine L. Tezak, Managing Director, ClearView Energy 
    Partners, LLC, Before the U.S. House of Representatives Select 
                    Committee on the Climate Crisis

    Good morning, Chairman Castor, Ranking Member Graves and 
distinguished Members of this Committee. My name is Christine Tezak, 
and I lead the power, pipelines and environmental policy practice at 
ClearView Energy Partners, LLC. ClearView is an independent research 
firm here in Washington, D.C. that serves institutional investors and 
corporate strategists. Thank you for inviting me today to contribute to 
your important discussion regarding the growth of renewables in the 
U.S. power portfolio. I am grateful for your diligent deliberation of 
climate issues on behalf of the nation's citizens, corporations and 
stakeholders.
    My testimony today makes three points, which I will detail in the 
paragraphs that follow. First, the nation's electric generation fleet 
has seen a significant drop in its emissions intensity since 2005 as 
new generation resources entered and older units retired. Second, 
renewable energy resources are growing quickly, if unevenly, throughout 
the U.S., thanks in large part to state initiatives. Third, I discuss 
how the highly flexible operating characteristics of natural gas plants 
have complemented renewables' growth by playing a balancing role. 
Specifically, they have done so by ramping up and down to accommodate 
the variation in renewable resource production, whether hourly, 
seasonally or annually. Finally, I offer a few thoughts on natural gas' 
potential to economically facilitate the shift to a lower-emitting 
national power portfolio.
    The U.S. Energy Information Administration explains that U.S. 
electric power sector carbon dioxide emissions (CO<INF>2</INF>) 
declined 28% since 2005 because of slower electricity demand growth and 
changes in the mix of fuels used to generate electricity. In 2017, EIA 
calculated that CO<INF>2</INF> emissions from the electric power sector 
totaled 1,744 million metric tons (MM MtCO<INF>2</INF>) in 2017, the 
lowest level since 1987. In 2018, they rose slightly to 1,762 MM 
MtCO<INF>2</INF>.
    In CY 2017, the world's ten cleanest power mixes accounted for 9.5% 
of power generation and averaged 84.3% emissions-free on a generation-
weighted basis. On the same basis, however, they averaged 25.6% 
nuclear-powered and 48.1% hydro powered, and only 10.6% non-hydro 
renewable powered (the U.S. was 10.1% in CY 2018, according to our 
Firm's analysis of EIA data). In other words, most of the ``green'' 
power is blue. We're not all fortunate enough to have volcanoes and 
glaciers, so many nations--including the United States--find themselves 
installing the renewables that nature didn't provide.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                        mid-century ``max-outs''
    Under the Federal Power Act, states have the authority over 
electric generation adequacy within their borders. This means that 
siting and fuel mix decisions are under state authority. The federal 
Environmental Protection Agency (EPA) sets emissions standards for 
plants of different fuel types and all plants are required to meet 
them. Emissions standards have been put in place since the 1970s. EPA 
plans to finalize its Affordable Clean Energy program to address power 
sector greenhouse gas (GHG) emissions this month.
    Individual states, at their discretion, have established targets or 
mandates directing their utilities to procure renewable energy 
resources based on the percentage of energy delivered over the course 
of a year. These programs differ significantly, some states are very 
ambitious; others do not have any program in place at all. We summarize 
these programs below in Figure 2.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


    The details of these state-led programs differ, both in scope and 
in stringency. Washington, D.C. and Hawaii have requirements for their 
utilities to deliver 100% renewable energy by 2032 and 2045, 
respectively. The state of Washington and New Mexico also have binding 
requirements, but these programs require 100% ``zero carbon'' 
generation by 2045 and 2050, respectively. California and Nevada have 
established non-binding goals to procure 100% of electric power needs 
from zero carbon resources by 2050.
           complex market dynamics and operational challenges
    In many areas of the country, renewable energy growth has been 
modest, and it has not presented significant challenges to the regional 
transmission operators (RTOs) that manage multi-state markets. However, 
some markets are seeing significant operational impacts and growing 
queues of new projects seeking interconnection.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


    We offer two examples. California and the Southwest Power Pool. The 
first has a high penetration of solar, the latter, of wind. California 
has seen significant changes in its market, as both its behind-the-
meter (a.k.a., distributed, or ``rooftop'') and utility-scale solar 
deployments have grown. Solar power production has contributed to a 
``duck curve'' phenomenon,\1\ where net load (demand) in this market 
falls in the middle of the day, only to ramp up strongly in the late 
afternoon and evening. This differs from the prior load curve, which 
reflected a ramp up in the morning, fairly stable daytime demand, an 
incremental evening ramp and then a tapering off as most folks retired 
for the evening. Solar has been making strong contributions to 
California's electricity needs over the last several years, meeting 14% 
of annual demand needs in 2018. Even though renewables contributed 
26.6% of the gigawatt hours (GWh) needed to serve California over the 
course of last year, the provision of peak service still relies heavily 
on natural gas facilities (see Figure 4).
---------------------------------------------------------------------------
    \1\ For further information on the ``duck curve,'' see https://
www.nrel.gov/news/program/2018/10-years-duck-curve.html.
---------------------------------------------------------------------------
    California's natural gas fleet is becoming smaller, in part through 
retirements associated with age and a state-level regulation governing 
once-through cooling systems. We expect natural gas facilities to 
continue to play a key role going forward in the California market, 
even as the Golden State closes in on its 60%/2030 RPS goal. Modest 
natural gas prices, efficient production and flexible response time 
remain key operational characteristics relied on by the grid operator. 
During its top 50 demand hours, California continues to rely heavily on 
in-state natural gas resources, even as renewable resources shoulder a 
larger share of demand at peak times, as Figure 4 illustrates.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


    Over time, we expect electric storage technologies--including 
batteries and pumped storage--to seek to fill the balancing role that 
natural gas currently plays in markets such as California. Natural gas 
sector participants also continue to explore carbon capture and 
sequestration or beneficial reuse technologies. Batteries offer great 
promise in terms of meeting predictable system shifts (such as the 
increase in demand in the morning and evenings (morning and evening 
ramp), as the four-hour duration of many batteries could complement 
this need well.
    Six states have storage adoption targets in place, and the Federal 
Energy Regulatory Commission (FERC) and the regional wholesale market 
operators are implementing a 2018 rule to facilitate the participation 
of storage resources in the wholesale markets that it oversees. 
Nationally, battery costs remain high relative to the operating profile 
of installed and new natural gas units. Rare earth mining for the key 
elements of battery technologies has environmental consequences of its 
own. It is also an industry that currently relies on foreign supply 
chains and could be unsettled during periods of trade tensions.
    Longer-duration storage (around eight hours) such as pumped hydro, 
has also been eying this balancing role. The FERC has seen an uptick in 
preliminary permit applications for pumped hydro storage projects. 
However, like other large-scale industrial efforts, stakeholders have 
concerns about potential adverse environmental consequences and local 
community impacts. Such projects also require significant upfront 
capital investment. While the new applications are promising, it's not 
yet clear how quickly new projects will come online given that they are 
all still in the preliminary permitting stage. Eleven preliminary 
applications, representing nearly 11 GW of installed capability, have 
been filed at FERC in calendar 2019.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


    Natural gas assets can also fill in long-term supply gaps such as 
supporting hydropower-dependent areas particularly in the event of 
multi-year drought. Many hydropower resources lack pumped storage 
capability and are dependent on winter precipitation to refill their 
reservoirs.
    Wind energy growth has challenged system operators in the Midwest 
in a different way. For example, wind production meets an average of 
25% of daily power needs in the Southwest Power Pool (SPP). Wind served 
48% of load on the morning of December 20, 2018. Twenty-four hours 
later, wind's contribution at the same time of day had eased to 17% of 
load, and the difference was accommodated with a doubling of natural 
gas generation and a 60% increase in coal-fired dispatch. Minimum wind 
output over the last 12 months in the SPP territory clocks in at 148 MW 
(August 2018) compared to a high of 16.5 GW on May 19. The maximum one-
hour ramp (increase) observed to date is 3.7 GW, and the largest swing 
in production was a drop of 14.8 GW over 18 hours).
    SPP has a significant number of new wind projects in its queue. 
These high penetration regions illustrate that operational challenges 
are likely to remain as renewables expand their participation in the 
organized regional markets. Balancing significant changes to wind loads 
currently is met by dispatchable natural gas (and other resources, 
including coal) while other options are developed and become more 
affordable.
                       considering affordability
    Last week, former New York City Mayor Michael Bloomberg announced a 
$500 MM commitment to advocate for the closure of the nation's 
remaining coal plants by 2030 and to work to prevent construction of 
new natural gas plants in an effort to address climate change on a 
shorter timeline envisioned by most existing state programs (and the 
judicially stayed Clean Power Plan).
    We built a cursory estimate of hardware costs required to replace 
1.15 TWh of electricity provided by coal facilities in 2018. This 
simplified pro forma estimate considered only power plant substitution 
(i.e., exclusive of financing, transmission interconnection, etc., but 
inclusive of storage capability for solar and wind). We also did not 
account for residual asset values assigned to retired fleet. Assuming 
equal-shares of wind, solar, and biomass, with storage to complement 
wind and solar (but not biomass) at 4Wh/W, our back-of-the-envelope 
estimate implies that plant facilities alone--at today's prices--could 
require as much as $941 B in capital expenditures.
    Policymakers here at the federal level and in the states are 
cognizant of the impact higher electricity rates can have on consumers, 
whether individuals or businesses. In our analytical work, our Firm 
sometimes frames energy security in three dimensions: adequacy, 
attributes and affordability. Our experience is that affordability can 
be a real-world constraint when it comes to policy formulation. Put 
another way, focusing on attributes to the exclusion of affordability 
can undermine security. Natural gas may still have a key role to play 
as the nation deploys an increasing number of low-emitting resources in 
our portfolio.
    Our annual Energy Policy by the Numbers report, due to be released 
this month, estimates state-level, average gasoline, home heating and 
electricity expenses as a percentage of per capita disposable personal 
income (DPI), a proprietary statistic we call ``consumer energy 
leverage'' (CEL). In preparing our CEL estimates, we rely on EIA's 
state-level, residential retail electricity rate data.
    Applying those data to this discussion, we looked at the potential 
impact of increasing electricity rates through the addition of a $0.01/
kilowatt hour (kWh) surcharge on our estimated average residential bill 
for each state. A surcharge of this sort might notionally be used to 
fund the replacement of existing generation assets such as the plan 
proposed by former Mayor Bloomberg. Our analysis shows that this 
uniform charge has disparate rate impacts (bill increases of 3-11%), 
given differences in the underlying cost of power in each state and 
differences in average consumption, as we illustrate in Figure 6. In 
other words, a uniform surcharge could exert disparate economic impacts 
on different regions.
    Taking advantage of the geographic diversity here on this 
Committee, I also included data summarizing the resources and 
technologies that comprise the power generation mixes in each of your 
home states (Figures 7-17).
    Madam Chair, this concludes my written testimony. I look forward to 
any questions you or your colleagues might have at the appropriate 
time.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


    Ms. Castor. Thank you very much.
    Ms. Hamilton, you are recognized for 5 minutes.

                STATEMENT OF KATHERINE HAMILTON

    Ms. Hamilton. Good morning. My name is Katherine Hamilton, 
and I am the chair of the firm 38 North Solutions and the 
nonprofit Project on Clean Energy and Innovation.
    Thank you to Chairwoman Castor, Ranking Member Graves, and 
the entire Select Committee for inviting me to testify before 
you today.
    You have heard from the solar and wind industries, and I 
would offer that other renewable resources--hydropower, 
geothermal, ocean and tidal, and biomass--should also be 
considered part of the equation to provide clean energy.
    Today I am here to talk to you about the flexible 
technologies and applications that will connect all of these 
resources, getting more value out of every kilowatt hour we 
generate, while allowing us to fully reach 100 percent clean 
energy deployment and enabling all Americans to benefit from 
this energy transition.
    I started my career designing grids for a utility, an 
experience that taught me how our grid works and that more than 
generation and wires are needed to make it function at its full 
capacity.
    In the decades since that time, innovation that has 
originally been limited to the utility has been democratized 
such that entrepreneurs throughout this country have developed 
technologies that change the way we participate in the electric 
grid. We now need all of these technologies to work together to 
mitigate climate change. And the good news is that we have most 
of those today.
    On the transmission side, flexible grid technologies, such 
as phaser measurement units, dynamic line ratings, capacitor 
banks, and volt/VAR optimization, allow for more efficient and 
effective sensing control and management of the power flowing 
through our transmission lines. Even broadband, to which many 
of our rural communities still do not have access, can serve as 
an enabler for renewable energy and energy efficiency 
technologies.
    Grid scale storage, from batteries to flywheels to pumped 
hydro, enable renewable energy to be stored preventing 
overbuilding of these resources and allowing them to function 
as baseload generation.
    Within the decade, we will see long-duration chemical 
storage plants able to drop into the footprint of and replace 
coal and gas fleets with inexpensive, nontoxic, and nonemitting 
grid scale solutions.
    On the customer side, consumers from industrial plants to 
commercial businesses to homeowners can choose what kind of 
energy they consume while controlling their costs. Flexible 
distributed energy resources such as demand response, energy 
efficiencies, smart inverters, batteries, thermal storage, fuel 
cells, combined heat and power, microgrids, electric vehicles, 
and geothermal heat pumps, there are a lot of them, can all 
contribute to the customer not just being a load on the system 
but becoming part of resource, allowing the supply and demand 
sides to become interchangeable.
    In other words, while we think of grid-side resources as 
being the only source of generation, customer resources can 
also provide electricity to themselves, to each other, and to 
the greater grid.
    In addition to integrating renewables and providing more 
choices, these technologies save customers on their bills and 
enable a more resilient system.
    But turning now to the policies that will allow these 
flexible resources to do their job and make the grid 100 
percent clean.
    Abby and Tom talked about tax credits, and it is extremely 
important that we enable energy storage to take advantage of a 
tax credit separate and apart from other generation sources. 
Financial instruments, like bonds or a green bank, will be 
important for directing capital toward clean energy investment, 
funding low carbon infrastructure projects, supporting 
community development, and providing a path like securitization 
to retire coal plants.
    For lower-income communities, grants in lieu of tax credits 
and raising the cap on weatherization funds to install solar 
and other distributed resources could provide a financial means 
for these customers to access clean energy.
    A Federal clean energy standard that allows flexible 
resources to participate and receive credit for integrating 
renewables would not only allow for full implementation of 
renewables but also would create economic benefits, enabling 
participation by customers of all types.
    Research and development continues to be important, not 
only to test and demonstrate new technologies, but also to 
support modelling, analysis, planning, and technical assistance 
to regulators, utilities, customers, and solutions providers.
    It is crucial that our Federal Energy Regulatory Commission 
issue a final rule on the distributed energy resource 
rulemaking to give these resources access to competitive 
markets.
    Federal policy does not have to conflict with State goals, 
and in many cases distributed energy resources can provide 
services to both the utility on a local level while also 
delivering valuable services to the wholesale market.
    Finally, and perhaps most importantly, we need to be 
thoughtful in designing our energy transition, ensuring that 
workers and the communities in which they live, and on whose 
shoulders our industrialized Nation was built, are taken into 
consideration.
    My purpose here has not been to debate whether we can or 
cannot get to 100 percent, but instead to raise the possibility 
that we have the tools to do so and that by deploying flexible 
resources throughout the grid, we can fully integrate renewable 
energy.
    Whether we combine demand response with wind turbines or 
energy storage with solar power, or whether we give consumers 
the ability to manage and use their electricity as they see 
fit, it is all part of the electricity system that can and 
should be 100 percent emission free.
    Thank you for your interest in climate change solutions and 
the opportunity to present this testimony.
    [The statement of Ms. Hamilton follows:]
                              ----------                              


  Testimony of Katherine Hamilton before the House of Representatives 
         Select Committee on the Climate Crisis, June 13, 2019

    Good morning. My name is Katherine Hamilton. I am the Chair of the 
firm 38 North Solutions and the non-profit Project on Clean Energy and 
Innovation. Thank you to the Chair, Ranking Member, and the entire 
Select Committee for inviting me to testify before you today regarding 
the deployment of renewable energy in the United States.
    Whether your goal is to mitigate climate change, increase 
resilience, improve the economy, or lower consumer costs, clean and 
renewable energy resources provide those solutions. You have heard from 
the solar and wind industries and I would note that other renewable 
resources--hydropower, geothermal, ocean and tidal, and biomass--should 
also be considered part of the equation to provide clean generation 
sources.
    Today I am here to talk about the flexible technologies and 
applications that will connect all of these resources, getting more 
value out of every kilowatt-hour we generate, while allowing us to 
fully reach 100% clean energy deployment and enabling all Americans to 
benefit from this energy transition. I started my career with a decade 
designing grids for a utility, was a Certified Energy Manager and 
directed energy and water efficiency programs at the National Renewable 
Energy Laboratory, and later ran the GridWise Alliance, focused on 
deploying smart grid technologies. Those experiences taught me how our 
grid works and that more than generation sources and wires are needed 
to make it function at its full capacity. During those same decades, 
innovation that had originally been limited to the utility has been 
democratized such that entrepreneurs throughout this country have 
developed new technologies and applications that can change the way we 
participate in the electric grid. We now need all of these technologies 
to work together to mitigate climate change, and the good news is that 
we have most of those technologies today.
    Let us look first on the grid side of the system. Flexible grid 
technologies such as phaser measurement units, dynamic line ratings, 
capacitor banks, and Volt/VAR Optimization allow for more efficient and 
effective sensing, control, and management of the power flowing through 
our transmission lines. Even broadband, to which many of our rural 
communities still do not have access, can serve as an enabler for 
renewable energy and other energy technologies. Grid scale energy 
storage--from batteries of all chemistries, to flywheels, to flow 
batteries and longer duration pumped hydro and chemical storage--will 
enable the storage of vast quantities of renewable energy generation, 
preventing overbuilding these resources and essentially allowing them 
to function as what we think of as ``baseload'' generation. Already, 
energy storage batteries have been installed to replace natural gas 
peaker plants in California,\1\ proving the cost-effectiveness of a 
technology that produces no greenhouse gases. Within the decade we will 
see long duration chemical storage plants able to drop into the 
footprint of and replace entire coal and gas fleets with inexpensive, 
non-toxic, and non-emitting grid scale solutions.
---------------------------------------------------------------------------
    \1\ Article on peaker plant replacement projects can be found here: 
https://www.utilitydive.com/news/storage-will-replace-3-california-gas-
plants-as-pge-nabs-approval-for-worl/541870/.
---------------------------------------------------------------------------
    On the customer side of the meter, consumers--from industrial 
plants to commercial businesses to homeowners--can choose the type of 
energy they consume while controlling their costs. Flexible distributed 
energy resources such as demand response, energy efficiency, smart 
inverters, batteries, thermal storage (from hot water heaters, for 
example), fuel cells, combined heat and power, microgrids, electric 
vehicles, and geothermal heat pumps can all contribute to the customer 
not just being a load on the system, but actually becoming part of the 
resource, allowing the supply and demand sides to become 
interchangeable. In other words, while we think of grid side resources 
as being the only source of generation, customer resources--whether by 
reducing demand or by actually generating energy--can also provide 
electricity to themselves, each other, and the greater grid.
    These flexible resources on both the grid side and the consumer 
side of the system can be seen as ``Non-Wires Alternatives,'' meaning 
that they can be installed to defer capital outlay of new lines and 
substations, saving utility investment and in turn customers money on 
their bills.\2\ For example, in the Brooklyn-Queens Demand Management 
project, the utility, ConEdison avoided a $1.2 B substation upgrade by 
deploying demand response, energy efficiency, and distributed 
resources.\3\ On the transmission side, under FERC Order 1000, in the 
transmission planning process, flexible technologies that can avoid 
build-out of transmission should be considered.\4\
---------------------------------------------------------------------------
    \2\ A collection of case studies of Non-Wires Alternatives projects 
can be found here: https://e4thefuture.org/wp-content/uploads/2018/11/
2018 Non-Wires-Alternatives-Report_FINAL.pdf.
    \3\ Article about BQDM program can be found here: https://
www.utilitydive.com/news/despite-failures-coned-targets-more-energy-
savings-from-non-wires-pioneer/547725/.
    \4\ Summary of Order 100 can be found here: https://www.ferc.gov/
industries/electric/indus-act/trans-plan.asp.
---------------------------------------------------------------------------
    Customers have seen tremendous economic benefits from flexible 
demand-side resources. On the PJM grid in the mid-Atlantic, customers 
collectively saved $11.8 billion in one year alone through demand 
response.\5\ In another example, in its Distributed Energy Resource 
Roadmap, the New York Independent System Operator stated it ``believes 
that providing resources with the flexibility to meet wholesale and 
distribution system needs will deliver the maximum benefit to New York 
electricity consumers.'' \6\ Baltimore Gas and Electric's SmartEnergy 
Rewards program, in which Maryland customers lowered their energy usage 
in response to signals from the utility, is estimated to have avoided 
$93 million in transmission capital expenditures and $72 million in 
distribution capital expenditures--savings that are then passed along 
to the customers.\7\
---------------------------------------------------------------------------
    \5\ Link to PJM Market Monitor report can be found here: https://
aem-alliance.org/aema-reacts-strongly-market-monitor-report/.
    \6\ ``DER Energy Market Design: Dual Participation''. New York 
Independent System Operator, Feb 2018, 2019. https://www.nyiso.com/
documents/20142/5256593/DER%20Energy%20Market 
%20Design%20Dual%20Participation%20022819.pdf/cfaf3647-4b77-a706-b86d-
24129d460ecf.
    \7\ Report on this program can be found here: https://
www.utilitydive.com/news/behavioral-demand-response-gives-baltimore-
gas-and-electric-a-business-reas/546895/.
---------------------------------------------------------------------------
    Resilience is a key component of a flexible clean energy future. 
The ability to fail fast, and then recover fast, is particularly suited 
to distributed energy resources. As far back as Hurricane Sandy, 
microgrids in New York and New Jersey enabled university campus 
facilities to continue operation in the face of massive power 
outages.\8\ When hurricanes hit Texas, Florida and North Carolina, 
distributed solar and demand response were able to stabilize the grid 
and prevent surges when power was restored. During heat waves in 
California, hundreds of energy storage facilities at office buildings 
in San Francisco were called to operate collectively as a ``virtual 
power plant,'' reducing demand on an over-taxed grid. During the solar 
eclipse in 2017, over 750,000 programmable thermostats were lowered by 
their consumers to reduce demand by 700 MW as solar systems across the 
country were displaced in the temporary darkness.\9\ Those thermostats 
alone provided as much grid service as seven gas peaker plants, often 
the most inefficient and emitting resources. Given the start of 
wildfire season in California and the calling of public safety outages, 
microgrids and other distributed resources will only become more 
important. Flexible distributed energy resources have proven to provide 
resilience when the grid needs it the most.
---------------------------------------------------------------------------
    \8\ Article on Princeton's microgrid can be found here: https://
www.princeton.edu/news/2014/10/23/two-years-after-hurricane-sandy-
recognition-princetons-microgrid-still-surges.
    \9\ See blog from Nest thermostats: https://nest.com/blog/2017/08/
10/solar-eclipse-meet-the-nest-thermostat/.
---------------------------------------------------------------------------
    Now the question becomes, what can Congress do to support these 
flexible technologies? We know from experience that tax policies like 
the Investment Tax Credit and Production Tax credit have been 
instrumental in deploying solar and wind energy, bringing down costs 
through scale and allowing more consumers to have access to these 
resources. In the same manner, clarifying the tax code such that energy 
storage can have access to the Investment Tax Credit will be important 
to driving down the cost of energy storage of all types, opening up new 
markets in dozens of states and offsetting the cost of deployment in 
states like California, New York, Massachusetts, and New Jersey that 
already have energy storage targets in place.
    In addition to tax policy, financial instruments will be important 
to providing certainty and driving investment in U.S. grid innovation. 
Those tools could include a federally-managed financial institution 
like a Green Bank to provide capital for low carbon infrastructure 
projects, supporting community development and providing a path like 
securitization to retire coal plants.\10\ Public-private partnerships 
and cost-sharing, originally required with the Recovery Act grants, 
defrayed the cost of advanced metering and other smart grid 
technologies to utilities and their consumers. Grants in lieu of tax 
credits and raising the cap on Weatherization funds to install solar 
and other distributed resources, could provide financial means for 
lower income customers to access clean energy.
---------------------------------------------------------------------------
    \10\ In Colorado, a bill was introduced in the state legislature to 
securitize the closure of coal plants with a bond mechanism: https://
leg.colorado.gov/bills/hb19-1037.
---------------------------------------------------------------------------
    Goals for deployment of clean energy, such as with Renewable 
Portfolio Standards and Clean Energy Standards, have been implemented 
in 29 states, three territories, and the District of Columbia and have 
spurred development of renewable energy.\11\ States like New Mexico, 
Nevada, California, and Washington; mayors of 216 cities as diverse as 
Madison, Wisconsin, Salt Lake City, Utah, and Orlando, Florida; 
utilities like Xcel, Idaho Power and Green Mountain Power; and 
corporations \12\ like Bank of America, Anhueser-Busch, and Walmart, 
have all made commitments to transition to 100% clean energy. Based on 
the Sierra Club's Ready for 100 campaign, one in five Americans lives 
in a community that has committed to 100% clean energy.\13\ Targets for 
energy storage in states like California have created tangible economic 
opportunities--over 200 companies doing business in the state--
supporting good union jobs while lowering consumer bills from demand 
charges. A federal clean energy standard that allows flexible 
resources, such as energy storage and demand response, to participate 
and receive credit for integrating renewables, will not only allow for 
full implementation of renewables, but also will create economic 
benefits and enable participation by customers of all types.
---------------------------------------------------------------------------
    \11\ Map of states with RPS goals can be found here: http://
ncsolarcen-prod.s3.amazonaws.com/wp-content/uploads/2018/10/Renewable-
Portfolio-Standards-2018.pdf.
    \12\ Corporations with 100% renewable energy commitments can be 
found here: http://there100.org/companies.
    \13\ Ready for 100 website with list of mayors can be found here: 
https://www.sierraclub.org/ready-for-100.
---------------------------------------------------------------------------
    Research and development programs at the Department of Energy 
(``DOE'') and other federal agencies have been crucial to developing 
renewable energy technologies. In my seven years at the National 
Renewable Energy Laboratory, I worked with scientists and engineers 
developing new chemistries and technologies, and then testing them in 
partnership with innovators in the private sector. Programs like ARPA-E 
have asked questions about big problems and supported start-ups with 
solutions to these problems.\14\ The DOE Offices of Electricity and 
Energy Efficiency and Renewable Energy and the national laboratories 
still play an important role in testing and demonstrating new flexible 
grid technologies. In addition to basic research and development, our 
federal government has a role in programs that are cross-cutting and 
that support modeling, analysis, planning, and technical assistance to 
regulators, utilities, and solutions providers. ``Soft'' costs like 
interconnection and permitting continue to be barriers and increase the 
cost of integrating clean energy resources; the DOE can be instrumental 
in providing assistance in those areas.
---------------------------------------------------------------------------
    \14\ Testimony before Congress on success of ARPA-E can be found 
here: https://science.house.gov/imo/media/doc/
Testimony%20to%20Subcommittee%20on%20Energy_Williams. pdf.
---------------------------------------------------------------------------
    The federal government is the nation's largest landlord and should 
be positioned to lead by example in the energy transition. Ensuring 
that the government's own facilities are deploying flexible resources 
will increase their resilience to both natural disaster and physical 
threat. The Federal Energy Management Program at DOE serves an 
important role in developing best practices for federal buildings and 
partnering with agencies, utilities, and the private sector to deploy 
clean energy projects. The Department of Defense has several 
initiatives, including the Strategic Environmental Research and 
Development Program (SERDP) and Environmental Security Technology 
Certification Program (ESTCP),\15\ that test technologies that will 
allow their permanent bases as well as those in the field to become 
more efficient, secure, and clean. All of these programs should be 
supported to increase clean energy penetration while reducing emissions 
at sites.
---------------------------------------------------------------------------
    \15\ For more on these programs, see: https://www.serdp-estcp.org.
---------------------------------------------------------------------------
    The electric grid--whether from the transmission level or on the 
customer side--is part of our nation's physical and economic 
infrastructure. Access to electricity is considered a right of the 
citizens of the U.S. and it should be considered of national interest 
to implement policies supporting the efficient, cost-effective, safe, 
equitable, and clean build-out and use of the electric grid. Broadband 
for all consumers should be a priority; Internet access allows 
consumers to fully participate in renewable and all of these flexible 
distributed resources. In addition to consumers needing information to 
understand and control basic energy use, solar installers also prefer 
to monitor systems via internet and automatic demand response cannot 
operate without an on-line connection. Standards and codes are also 
critical to moving industry forward, providing a baseline of certainty 
and best practices for innovative and efficient products and solutions, 
while lowering the cost of those products for consumers.
    It is crucial that our Federal Energy Regulatory Commission 
(``FERC'') issue a final rule on the Distributed Energy Resource 
rulemaking to give flexible resources access to competitive markets. 
Over the past decade, Orders on demand response (Order 745) and energy 
storage (Orders 755, 784 and 841) have allowed resources that provide 
specific services to the grid to be paid for those services. In the 
case of demand response, states like Pennsylvania and Maryland have 
been able to aggregate consumer load, offsetting the cost of peak power 
while allowing consumers to directly benefit from lower prices. These 
state-based programs do not have to conflict with federal policy; in 
many cases distributed energy resources can provide services to both 
the utility on a local level, while also delivering other or similar 
services to the wholesale market. All of those flexible services should 
receive appropriate compensation, no matter what part of the grid they 
serve.
    Finally, and perhaps most importantly, we will need to be 
thoughtful in designing our energy transition, ensuring that workers 
and the communities in which they live that were built around mines and 
other fossil fuel facilities--and on whose shoulders our industrialized 
nation was built--are taken into consideration. These talented and 
motivated people of all ages and skill sets should be brought into the 
future of our electricity grid with training programs and access to 
these technologies.
    For nearly a decade, the National Renewable Energy Laboratory has 
been working collaboratively with other laboratories, universities, 
industry, and non-governmental entities on the Renewable Electricity 
Future Study to analyze high penetration of renewable energy on the 
U.S. electric grid.\16\ In those publications, flexible resources such 
as those I have been discussing are seen as key to getting close to 
100% renewables. My purpose here has not been to debate whether we can 
or cannot get to 100%, but to instead raise the possibility that we 
have the tools to do so and that by deploying those flexible resources 
throughout the grid, we can fully integrate renewable energy. Whether 
we combine demand response with wind turbines or energy storage with 
solar power, or whether we give consumers the ability to manage and use 
their electricity as they see fit--it is all part of the electricity 
system that can and should be 100% emission free.
---------------------------------------------------------------------------
    \16\ See more on the RE Futures Study and subsequent papers here: 
https://www.nrel.gov/analysis/re-futures.html.
---------------------------------------------------------------------------
    As my friend and colleague Jigar Shah wrote in his book, Creating 
Climate Wealth, climate change solutions pose the greatest wealth 
creation opportunity of our time.\17\ By setting public policies that 
incentivize both renewables as well as all the flexible resources that 
connect those resources throughout the grid, we will be able to use 
U.S. innovation to become 100% clean, manage our costs, allow for 
consumer choice, increase resilience in the face of natural disaster--
all while providing certainty and stimulating economic growth for all. 
I am an eternal optimist, but I fully believe that with smart policy 
and political will, our nation has the ingenuity to make that 
transition.
---------------------------------------------------------------------------
    \17\ Shah, Jigar, Creating Climate Wealth: Unlocking the Impact 
Economy, ICOSA Publishing, 2013.
---------------------------------------------------------------------------
    Thank you for your interest in climate change solutions and in the 
opportunity to present this testimony. I look forward to your 
questions.

    Ms. Castor. Well, thank you all very much. Your testimony 
was compelling. So I know the committee is going to have a lot 
of terrific questions for you.
    So I will recognize myself for 5 minutes to start the 
questioning.
    Modernizing and cleaning up the electricity grid by 
deploying more renewables is important for a whole host of 
reasons. The top two that come to mind first, the energy 
sector, the electricity sector, even though emissions have 
fallen somewhat, remains a significant part of the U.S. carbon 
pollution problem.
    And then when you turn to the transportation sector, 
industrial sector, we are going to have to electrify those 
industries that currently rely on burning fossil fuels. 
Electrification will be a more potent climate solution with a 
cleaner, more efficient grid.
    Ms. Hamilton, in your testimony you just shared with us, 
you described the potential benefits of flexible grid 
technologies and distributed energy sources. How can these 
flexible technologies lead to potential benefits for all of us 
in the United States? How can we achieve our renewable goals on 
a faster timeline?
    Ms. Hamilton. Thank you for the question.
    It is a really important question, because part of this is 
about how do we really engage consumers in part of the solution 
and give them a path forward on that. And I think that is all 
part of the equation.
    And as I said before, this is about allowing the supply and 
demand side to work together and independently. That is going 
to require a lot of planning. It is going to require tools that 
allow us to manage these systems. But what it will do for 
customers, it will lower their costs and it will allow for 
greater resilience, because it will allow for technologies that 
will, while failing fast, will also be able to recover fast.
    Ms. Castor. Mr. Kiernan, I think I saw you nodding your 
head when--when Ms. Hamilton said that the ITC has to include 
energy storage. So talk to us about that. You agree with that? 
And explain your position.
    Mr. Kiernan. Yes, we do agree with that. There is a bill, I 
believe in both chambers, the House and the Senate, supporting 
a storage ITC. AWEA is supportive of that. We do believe that 
wind, solar, and storage and natural gas can work very, very 
effectively together. We do think storage costs have come down 
dramatically. But it would benefit by a tax credit that would 
further stimulate cost reductions and deployment of storage, 
whether on the grid or with particular projects, particular 
solar or wind projects or all of the above. But storage is very 
much part of the solution, and ITC would help deploy it.
    Ms. Castor. So wind energy is growing by leaps and bounds 
now. But with the storage piece, you could accelerate 
deployment and cleaner electricity across the country?
    Mr. Kiernan. Absolutely. And I would add with transmission. 
Yes, we need to storage on the grid, and we absolutely need 
additional transmission, because it is transmission that allows 
you to get clean wind energy or clean solar from where it is 
generated to load. Storage is part of the answer; transmission 
is the other very big part of the answer.
    As I said earlier, our current grid is a D-plus. We have 
got to get better if we are going to have an economy of the 
future.
    Ms. Castor. So, Ms. Hamilton, battery storage is a big part 
of this as well. Everyone knows that we have got to do better.
    How would you prioritize R&D in battery storage and 
leverage public/private partnerships here?
    Ms. Hamilton. All right so there are a couple of ways. One 
is to continue on basic R&D for new technologies, new 
chemistries. So ARPA-E is looking at long-duration storage, for 
example.
    Another piece is some of the issues around the cost of 
storage are interconnection and permitting. And those are 
costly. They are called soft costs. And being able to have some 
assistance on that from the Department of Energy would be 
incredible. As I had mentioned before, also modeling and 
analysis.
    But I think throughout the system, whether it is from basic 
R&D, all the way to really providing tools to energy storage 
and other developers to lower the costs of permitting an 
interconnection will be really valuable.
    Ms. Castor. And then how do we build in the growing clean 
energy workforce, whether it is training initiatives that 
create good jobs all across the country, but especially in 
parts of the country that will need those good family-
sustaining jobs?
    Ms. Hamilton. Yeah, absolutely. That is a super important 
question, because there are a lot of parts of this country 
right now that have not been able to take advantage of the 
energy transition. And so we have to think about how to build 
capacity very locally, to ensure that we are all able to 
participate, whether it is in Appalachia, where I am from, or 
whether it is in other parts of the country.
    We have to think--and it doesn't necessarily mean you 
convert everybody to a solar job. That may not be the skill 
set. It may be some other type of job. But I do believe that we 
can do that. We just have to be very purposeful about the way 
we do it.
    Ms. Castor. Okay. Thank you very much.
    I recognize the ranking member now for 5 minutes.
    Mr. Graves. Thank you, Madam Chair.
    I think we are going to go to Mr. Armstrong first.
    Mr. Armstrong. Thank you, Madam Chair.
    And I appreciate everybody particularly talking--Ms. 
Hamilton in talking about permitting and how we deal with this. 
And I think that is something that runs industrywide, whether 
dealing with all of those issues and fast-tracking this.
    My question--and I also appreciate the conversation about 
storage. And one of the reasons I think that is important and 
we have to have this conversation.
    So--and I am from North Dakota. We do--we have a tremendous 
wind energy. We actually just permitted our first solar 
panels--I don't know--solar farm? Solar farm. And so we are 
excited about that, too.
    But earlier this year, I had the opportunity to go on the 
USS North Dakota, which is a Virginia-class sub. And Virginia-
class subs require over about 9,000 pounds of rare-earth 
metals. And as we have this conversation and we are moving 
forward, one of things I think we have to talk about is the 
national security interests that are involved in how we produce 
this energy and the fact that the United States is essentially 
100 percent reliant on importing rare-earth metals. I think at 
this point in time--well, Interior has found that we are 100 
percent net importer of over 20 critical rare-earth metals.
    And rare-earth metals are limited to a few countries. There 
is some--obviously some of the world's biggest polluters are 
where we import this stuff from, not to mention some human 
rights issues. And, I mean, when we are participating in a 
global economy, these are important.
    But, you know, Mountain Pass is, I think, the only place we 
have in the United States right now that does that. And it is 
actually a consortium that is owned particularly by Chinese 
importers, and we actually ship about 50,000 tons of the rare-
earth concentrate to China each year for processing.
    So when we are having this conversation, we are talking 
about grid, we are talking about batteries, we are talking 
about all of this. Are we also including in that conversation 
seriously talking about creating a situation where we are not 
so dependent on other countries?
    I mean, you mentioned tariffs in your opening testimony, 
about increasing the cost on producing solar. Are we having a 
conversation about making sure that we are, I mean, dealing 
with these issues here? And I mean, how--how are we addressing 
that?
    And I will start over here. Thank you.
    Ms. Ross Hopper. I am going to assume over here means--
because you are looking at me.
    Well, thank you for the question. I agree with you 
wholeheartedly that it is an important piece of the 
conversation. I would suggest it is not limited, certainly, to 
renewable technologies, but those rare-earths, right, we use 
them in so many of our products.
    Yes, we are having an honest--I think an honest 
conversation as we think about what are the elements that are 
important. And so one of the sort of facts or that--at least in 
solar, in the solar/photovoltaic market, over 90 percent of the 
material is silicon, which is the second most abundant resource 
in the Earth's crust. So we are talking about small amounts.
    I know there is legislation--the last time Tom and I 
testified together, a part of that bill was looking at rare-
earths and doing an inventory and sort of understanding what 
our assets are here, where we get them from, and other places 
and how do we--how do we sort of increase our thoughtfulness 
about that.
    So that is what I would say.
    Do you have an addition?
    Mr. Kiernan. If I could just add, for the wind industry, 
actually it is a very small percent of wind turbines need rare-
earths. It is only what are called direct-drive turbines. And 
we can get you the number, but it is probably less than 5 
percent of the deployed wind turbines in the U.S. are direct-
drive, have magnets, and need a small amount of rare-earths. 
The vast, vast majority are geared and do not use rare-earths. 
So not an issue, essentially, for wind energy.
    Mr. Armstrong. And I am going to let Ms. Hamilton answer, 
too. But I think the problem with all of this is--is that that 
might be true, except whether you are moving towards electric 
cars--I mean, a Tesla needs 7 pounds of lithium. And when we 
are dealing with energy storage on the grid and--I agree our 
grid needs updating, too--batteries are a part of that 
conversation.
    So whether it is a turbine or a battery or a battery in a 
house for a solar panel, rare-earth metals are a part of that 
conversation. And we don't produce them here.
    So, Ms. Hamilton, you have--you wanted to answer.
    Ms. Hamilton. Yeah, thank you so much for this question. 
This is a really, really important issue.
    And it is rare-earths and also critical materials, all of 
those platinum group metals, lithium, cobalt, that is often 
sourced from the Congo that does have terrible practices, human 
rights practices.
    So what we have to do is think holistically. And there is 
an executive order that just came out with a report on critical 
materials for the United States and where they are.
    A big huge piece of this that we have not thought about yet 
is recycling. And it can be done. There are six companies 
around the globe that recycle critical minerals. They recycle 
lithium and cobalt, yet they are not in the U.S. We need to 
figure out how to develop policy both to mine in the U.S. but 
also to develop recycling facilities for rare-earths and 
critical materials.
    Mr. Armstrong. And I just--I think that is a great point, 
and I agree with that. I just don't think that conversation is 
happening as fast as the other one is, and we have to be very, 
very careful not to put ourselves in a situation where--we are 
energy independent as a Nation right now and create a situation 
where we are not, while we try and catch up.
    So thank you-all for your answers.
    Ms. Castor. Ms. Bonamici, you are recognized for 5 minutes.
    Ms. Bonamici. Thank you, Chair Castor and Ranking Member 
Graves. And thank you to the witnesses.
    I represent Northwest Oregon. And certainly back at home, 
but across the country, people are really calling for 
comprehensive action to address the climate crisis. And I thank 
Chair Castor and the committee for really talking about a 
transition to a 100 percent clean energy economy.
    And we know the importance of the investment, especially 
the Federal investments, but the new technologies and the new 
possibilities are there as well.
    Just this week, Representative Deutch from Florida and I 
introduced the Marine Energy Research and Development Act to 
accelerate research and development like the work that is being 
done by Oregon State University in the Pacific Marine Energy 
Center. They are building a wave energy test facility off the 
Oregon coast. It is very exciting. But it is--it is also going 
to rely on--as we have discussed, we need a workforce as well. 
And as someone who serves on the Education and Labor Committee, 
that is something that we need to have this conversation along 
with a transition.
    So in Oregon, we are really leading the way to ramp up 
renewables. Portland General Electric and NextEra Energy just 
announced their efforts to develop the Nation's largest major 
renewable energy facility that is going to be integrating wind 
and solar generation and battery storage in a single location, 
the Wheat Ridge Renewable Energy Facility. It is going to 
create and store safe, low-cost, clean renewable energy to 
power more than 100,000 homes. Kind of a trifecta--wind, solar 
and battery storage--to help balance the load, especially--
efficiently transfer the energy.
    And I know, Mr. Kiernan, you talked about the congestion 
costs, and I am going to ask you about that.
    But also, Ms. Hopper, you talked about a shared clean 
energy vision in your testimony. So what are the current 
opportunities and challenges of integrating when you have the 
solar with wind or battery storage?
    Ms. Ross Hopper. Thank you for the question.
    Yes, we are very aware of that project in Oregon. 
Congratulations.
    Ms. Bonamici. It is exciting.
    Ms. Ross Hopper. I think it is exciting. But it is also--it 
is a proof that the vision is coming to fruition now, right? 
And so this is--this is not just our clean energy future; it is 
our clean energy reality, which I find so exciting.
    What can we do to help accelerate that clean energy vision? 
I think what sort of my fellow panelists have talked about, 
(a), establishing the vision. It can't be understated, the 
planning that Katherine talked about, to make sure that we are 
intentional about what we are doing.
    I think we have highlighted some Federal policy, so around 
tax policy, around carbon policy certainly, around regulatory 
certainty, and predictability that we all share, that challenge 
both at the Federal level but also at the State level. You 
talked a little bit about soft costs. Like permitting these 
projects, whether it is on a roof or in a big field, it is 
challenging. And so getting clarity around there.
    I think for--certainly from the solar perspective, as we 
think about new construction and we think about the fact that 
as we are--you know, as we are building homes and new 
buildings, we should have those equipped for solar already and 
sort of have that just be--just like you get a front door or a 
window, you also have solar on your roof. It will bring down 
the affordability of home ownership if we have that.
    Ms. Bonamici. We actually have in Northwest Oregon a 57-
unit affordable housing building that was built to passive 
house standards in a multifamily dwelling, which is amazing. 
The costs are very, very low, the energy costs.
    Mr. Kiernan, when you talked about the congestion costs, 
what are the barriers? Is it funding? Do we need more research? 
How do we address that?
    Mr. Kiernan. It is mostly enabling FERC, empowering or 
directing FERC, to take the next steps in facilitating more 
transmission. So I mentioned earlier, one direction that 
Congress can give to FERC is for more interregional planning.
    Right now we have got these different regions--PJM, MISO, 
SPP--and they do planning independently and at different times, 
as opposed to doing it at the same time where they can perhaps 
figure out, oh, actually you have got a resource that can, if 
we connect our grids over the seams, meet what we need over 
here.
    So, for example, a simple direction from Congress to FERC 
to do more interregional planning or to give FERC back----
    Ms. Bonamici. Thank you.
    Mr. Kiernan [continuing]. Those are examples that help----
    Ms. Bonamici. Thank you. Perfect. I am going to try to get 
one more question in to Ms. Hamilton.
    But I have to say, Ms. Tezak, I loved all of the data in 
your testimony. Thank you. Those charts were really helpful.
    There is another project up in the Columbia River Gorge. It 
is a partnership of Federal agencies, industry, academia, 
National Labs--including the Pacific Northwest National 
Laboratory--working on the Wind Forecast Improvement Project to 
improve the caliber of the forecasting, especially in 
challenging terrain, if there are coastlines, mountains, 
canyons.
    So, Ms. Hamilton, how can assessments of this resource 
potential help accelerate the deployment of clean energy? What 
difference would that make to have better forecasting?
    Ms. Hamilton. Forecasting is critical, and it is very 
locational specific. So there are microsystems. They are not 
just--you can't just do it from a broad area. You need to 
really get down to a very localized level. So I think having a 
National Lab involved and doing resource assessment is critical 
to making sure that you know exactly what the resource is, when 
it can be best used and deployed, and then how you are going to 
go about doing it and bringing the private sector----
    Ms. Bonamici. Do we need additional R&D in that area, or do 
we just need funding to do it?
    Ms. Hamilton. I think you can still have a program within 
the Department of Energy, say in the Office of Energy 
Efficiency and Renewable Energy or the Office of Electricity 
that could help manage that.
    So, yes, you would still--having funding going to the 
National Labs to help with that is really important. I was at 
the National Renewable Energy Lab, so I am biased that way, but 
I still think that is really important.
    Ms. Bonamici. Thank you. And I am out of time.
    Thank you, Madam Chair. I yield back.
    Ms. Castor. Thank you.
    Mr. Carter, you are recognized for 5 minutes.
    Mr. Carter. Thank you, Madam Chair.
    And thank all of you for being here. A very important 
subject, and we appreciate your participation.
    I want to start with you, Ms. Tezak.
    I am from Georgia. And as we say in Georgia, there are two 
Georgias: There is Atlanta and then there is everywhere else. 
And it is true. And we have a lot of rural areas.
    Now, in your testimony, you told us that--or you stated 
that renewable energy was growing, but you also said that it 
was growing unevenly and that it was growing more in the urban 
areas than it was in the rural areas. And I want to focus on 
the rural areas, because we have got a lot of rural area in 
Georgia, a lot of rural area in my district, in South Georgia, 
in Southeast Georgia.
    And I can tell you, I served in the Georgia State Senate 
for many years. And during my time in the Georgia State Senate, 
I was one of first ones pushing for solar energy. And I am very 
proud of the fact that after having gone up against arguably 
one of the strongest lobbying groups in the State, in Georgia 
Power and Southern Company, that they have embraced it and that 
Georgia is now one of the top 10 States in solar energy in our 
Nation. And I think that is just phenomenal.
    And kudos to Southern Company and Georgia Power for what 
they have done. They have actually not only--not only embraced 
solar power and other renewable energy, but even the CEO now, 
his compensation is tied directly to how much renewable energy 
they are using. And I just think that is a great step on their 
part.
    But I wanted to ask you, what--this uneven growth that you 
talk about in renewable energy, particularly in solar energy, 
is it--is it specific State by State, or is it just rural/
urban?
    Ms. Tezak. I think it is State by State, and I think in 
part it is because of the natural resources available.
    If you look at the 10-year chart that we put together for 
Georgia, you can see how the generation mix has shifted away 
from coal to increased natural gas and the renewables and hydro 
that have always--hydro, that has always been there, and the 
renewables that are coming on.
    It takes time to make that transition. And one of the 
things that they have in SPP, for example, in the heartland of 
the country, is great wind. And that is not as readily 
available----
    Mr. Carter. Right, right.
    Ms. Tezak [continuing]. In Georgia as it is to----
    Mr. Carter. A lot of hot air down there sometimes, anyway.
    Ms. Tezak. Well, let's not get personal.
    But I think that, you know, it--that is a clear 
illustration of where some of the challenges are. I mean, when 
you speak about wind energy, you know, you can speak in 
gigawatts. And, you know, for residential solar, you are 
talking about kilowatts.
    And so, you know, each technology has a key role to play. 
And when you are talking about distributed load, then 
residential solar, I think, has a great opportunity to make a 
difference, as you pointed out.
    Mr. Carter. Right.
    Ms. Tezak. And it also can help the utility manage growth 
at the ends of the system, and that helps reduce the need for 
massive transmission investments.
    Mr. Carter. Well I want to mention--I don't mean to 
interrupt you, but I want to mention one company in particular 
in our district, Coastal Solar. And they have really found a 
niche here. In fact, they have--they have really--been able to 
really go into the rural areas, and particularly to the chicken 
farmers.
    And they have actually--actually got solar panels where 
they have helped the chicken farmers. And a lot of the farmers 
there in the rural communities are using this and using it to 
great advantage. And it has helped us. They are one of the 
reasons--Coastal Solar is one of the reasons why we are seeing 
more--seeing Georgia as one of the top 10 States in solar 
energy. And not only that, they are creating jobs, renewable 
energy. All of this is just great.
    I want to ask you about something else, and that is that 
Georgia is a number one forestry State in the Nation, biomass. 
This is something that we are producing a lot of in the first 
congressional district as well.
    It is a big market in the European Union but not so much in 
America. And I am just wondering why it hasn't caught on more? 
Because, you know, it essentially is--it is carbon neutral. And 
not only that, but through sustainable forests, we are 
replanting these trees, and this is--and obviously trees are 
helping us in what we are trying to do here.
    Any idea why this is something that the European Union uses 
heavily but we in America don't seem to have adopted it as 
much?
    Ms. Tezak. Well, anecdotally, I think there has been a bit 
of concern about the harvesting of mature trees and the change 
you have from a carbon profile perspective, when you substitute 
older trees for, you know, new trees and saplings.
    And so I think that the----
    Mr. Carter. But you have to do that anyway.
    Ms. Tezak. Right. But I think that there has been an 
evolution in thought that has biomass more agreeable here in 
the U.S. than perhaps it was 10 years ago.
    The wonderful thing about biomass that makes it competitive 
as a renewable technology is that it often doesn't need the 
same level of backup in terms of storage that solar and wind 
would, because it is a more stable power generation resource.
    And so I think that acknowledgment and the carbon 
neutrality of it is becoming more accepted, but I think that 
we--there was such a focus 10 years ago on being better than 
carbon neutral, that I think it took a little while for things 
to catch up. I mean, we have had an experience where, you know, 
plastic bags were better than paper bags, and now we don't like 
plastic bags. So I think that, you know, as we become more 
informed as a society, we get better--you know, we get better 
information.
    Mr. Carter. Right. Well, my time is up. But I just want to 
state for the record, Georgia is doing our part, and I am very 
proud of that.
    Ms. Tezak. Yes sir you are. I can assure you.
    Mr. Carter. Very proud of our State. Thank you.
    Ms. Castor. Yeah, Mr. Carter, Georgia may be outperforming 
the Sunshine State, the State of Florida.
    Mr. Levin, you--speaking of renewables, and exceeding 
everyone's projections, Mr. Levin from California.
    Mr. Levin. I will get to that. I am going to get to that.
    Thank you, Chair Castor. Thank you to our witnesses.
    Before coming to Congress, I cofounded a clean energy 
nonprofit called CleanTech Orange County. Now, it is called 
Sustain Southern California. And we have grown the clean tech 
economy in Southern California tens of thousands of jobs in the 
last decade. And we have put in place a number of policies that 
have enabled that to be the case, many of which I heard 
discussed on this panel.
    I also have to brag about California for a second, Madam 
Chair. And with all deference to Georgia and Florida, I 
encourage everybody to download the Cal ISO app. It is called 
``ISO Today.''
    And as of right now, 45 percent of the current demand in 
California is being served by renewable energy. And of that, 
54.1 percent is solar. Good job, 29.1 percent is wind. Good 
job. So 45 percent right now, currently, is being served by 
renewables.
    And we are the fifth largest economy in the world. And as 
we have continued to increase the percentage of load being 
served by renewables, our economy has improved. We have created 
incredible clean energy jobs, not hurt the economy.
    So I always try to dispute the false narrative that if you 
protect the environment, if you take steps proactively to 
combat the climate crisis, that somehow you will hurt the 
economy. In fact, the exact opposite is true. It is the 
greatest wealth creation opportunity of our time, if only we 
would lead as a Nation as we do in California. So with that, I 
will turn to questions.
    Ms. Ross Hopper, I would like to see greater deployment of 
distributed energy resources. With my colleague, Representative 
Welch of Vermont, we have written to FERC, Federal Energy 
Regulatory Commission, urging it to finalize its rulemaking 
that will set rules for distributed energy resource 
participation in the wholesale energy market--markets.
    Ms. Ross Hopper, how do you expect that a final DER rule 
would help you meet your solar deployment goals?
    Ms. Ross Hopper. Thank you for that question. It is an 
important one.
    And yes, California definitely leads the way. I was 
surprised you didn't talk about the solar mandate on new homes, 
because I think that is one of the other ways in which 
California is really leading. And it goes directly to your 
question, right? Which is----
    Mr. Levin. I only get 5 minutes.
    Ms. Ross Hopper. Well, as you think about how do you 
aggregate those distributed resources, right? And if we are 
going to put solar in all new homes in the great State of 
California, how do you use that--sort of to Katherine's point 
earlier, how do you use that as an asset so it is not merely 
benefiting the homeowner but it is benefiting the system?
    And so how do I think the rule will help? I think the rule 
will help because it will allow business models where you can 
aggregate that demand, put it into the wholesale market, get 
revenue back from it, so that customers can benefit but also 
the grid can benefit. And once we have clarity on that, it will 
drive deployment.
    Mr. Levin. Thank you.
    Ms. Hamilton, how do you think such rulemaking would help 
consumers?
    Ms. Hamilton. Well, this goes to the heart of--these are 
all consumer-sided resources. So I will give you an example 
of--15 percent of the spinning reserves in the Midwest ISO are 
from one facility, Alcoa, the smelter, and they are doing 
demand response. That is participating directly in the grid.
    But right now customers with resources that are cited 
behind the meter are not allowed to aggregate those resources 
into the grid, whether it is energy storage or solar and 
storage, whatever those resources are. This will directly 
enable them to benefit financially, because they will be able 
to actually provide resources that are then compensated. And 
that is super important.
    It is also going to be important to the grid. It will be 
important to the utility on a very local level, but it will 
also provide services to the greater grid that will enable more 
penetration of all of these renewables.
    Mr. Levin. Thank you. Yesterday, Chairman Chatterjee said 
that the Commission hasn't finalized the rulemaking because of, 
quote, ``complex legal questions.''
    Ms. Ross Hopper, Ms. Hamilton, how would you respond to 
that assertion?
    Ms. Hamilton. So I am not an attorney, but I think a lot of 
the questions are solvable. The technology questions, I think, 
are solvable, and I think the market questions are solvable, 
too.
    I think you can allow States to have jurisdiction at the 
same time and allow them to go forward with whatever goals they 
have within the State, while allowing their consumers and 
utilities to participate fully in the wholesale market in a 
competitive way.
    Ms. Ross Hopper. I am a lawyer, and I would agree with 
Katherine.
    Mr. Levin. I wanted to also echo my strong support of 
energy storage and that the Federal Government should be doing 
everything possible to get storage deployed across the country. 
I am a cosponsor of Representative Doyle's bill to expand the 
ITC to include storage.
    Ms. Ross Hopper, how is the solar ITC driving storage 
innovation today, and how would expanding the ITC to cover 
storage help innovation in the future?
    Ms. Ross Hopper. Sure. I will answer very quickly. The 
solar ITC--when storage is paired with solar, they can take 
advantage of it. So when we co-locate, that is permissible. And 
it has clearly changed the marketplace, right? Because you 
can--you can deploy these systems together and deal with a lot 
of--sort of the intermittency or reliability--I never called it 
reliability--the intermittency aspect of solar. The sun does 
not shine at night, Representative Graves.
    But if we disaggregate the two so that solar storage can 
stand on its own and be deployed in ways that are separate from 
a specific generation source, it just increases the options 
that we have and increases the flexibility to--to locate 
storage in different parts of our grid.
    Mr. Levin. Thank you. And I am out of time. But I thank 
you, again, for innovating and leading in this critical area.
    Ms. Castor. Mrs. Miller, you are recognized for 5 minutes.
    Mrs. Miller. Thank you, Chairwoman Castor, and Ranking 
Member Graves.
    Ms. Tezak, if the government right now mandated that we had 
to shut down all coal plants to move to renewables, how much 
would that cost?
    Ms. Tezak. We haven't actually fully modelled that in its 
entirety. We did take a look at the proposal that Mayor 
Bloomberg had suggested with shutting down the coal plants by 
2030. And on an equipment basis alone, not including 
transmission upgrades, not including financing, just on 
swapping out all of those coal assets for an even split of 
solar, wind--and to Mr. Carter's interest, biomass--with the 
necessary storage to balance intermittency, we got to $941 
billion.
    Mrs. Miller. Well, I have gotten to over a trillion.
    Ms. Tezak. Yes. By the time you put financing and 
transmission in and potentially residual cost for abandoned 
assets, easily.
    Mrs. Miller. How much do you think it would cost to finance 
it?
    Ms. Tezak. Well, in our theoretical, if you put a 1 
percent--a 1 cent per kilowatt hour surcharge on every kilowatt 
delivered in the U.S. last year, you would raise about $34 
billion towards that.
    Mrs. Miller. Given that the total spending in 2017 for 
electricity in West Virginia, for residential, commercial, 
industrial, and transportation, was only $2 billion, that would 
be a huge cost burden to my constituents. Wouldn't you say?
    Ms. Tezak. I would say that based on the analysis we 
provided in our testimony, it would weigh most heavily on your 
constituents.
    Mrs. Miller. It would.
    Could you elaborate on how transitioning to renewables 
would impose further costs on consumers?
    Ms. Tezak. Well, I think it is a matter of pace and, you 
know, exactly what you want to achieve.
    But more importantly, it is pace. You know, the more 
accelerated the timeline, the more compressed and limited your 
options are.
    So to the extent that it took several years for cost 
declines to materialize in solar and wind, which they did, in 
no small part, because in spite of Federal support, natural gas 
became cheap as well, and so the competitive nature forced the 
cost direction down. That occurred over time.
    And so very quick action can sometimes limit the ability to 
make use of cost declines, you know, that appear over time. For 
example, the R&D that Katherine has mentioned, that is going to 
take a little time to develop. If we find chemical solutions 
that take our reliance off rare-earth minerals so that we have 
something else that is available domestically, that may not be 
available on the same timeline that is foreseen, for example, 
under Mayor Bloomberg's thing.
    So I think that you lose some economic benefit. Plus you 
have to reconcile the fact that you may have assets out there 
that you are still paying for. For example, in PG&E's 
bankruptcy, there is a question about whether or not they can 
reject early-stage--you know, some of the first renewable 
projects that were out there because simply on a cost basis.
    So do you abandon those folks who brought you forward at 
the beginning? It is a very difficult set of equities to 
balance.
    Mrs. Miller. It is a very difficult set.
    In West Virginia, in 2017, coal-fired electric plants 
accounted for 93 percent of my State's electricity. Renewables, 
mostly hydroelectric and wind, accounted for 4.6 percent, and 
natural gas provided the remaining 2.2.
    This isn't just West Virginia. Nationwide, wind, solar, 
geothermal, and hydroelectric power only constituted 6 percent 
of the consumption of energy in 2017.
    Do we need more renewable energy? Absolutely, yes.
    Is it realistic that we will keep our homes, businesses, 
schools, powered reliably without coal and natural gas? 
Absolutely not.
    We need to be focused on innovation, like real carbon 
capture, that can make a real difference in protecting our 
government--our environment. Excuse me.
    Ms. Hamilton, I appreciated your reference to Appalachian 
roots and the term ``thoughtful,'' because thoughtful is very, 
very important. So is supply and demand.
    We need to consider the economic consequences of what this 
committee is considering. I want my colleagues to understand 
that a few years ago my constituents were left with the results 
of bad policy, of mandates which picked winners and losers 
without letting the market decide.
    There is a place for all forms of energy, but it cannot 
come at the expense of jobs and livelihoods and entire 
communities being wiped out.
    Electricity bills skyrocketed, which left many people with 
fixed incomes choosing between food, and medicine, and keeping 
their heat and lights on.
    My State and Mr. Palmer's State of Alabama are amongst the 
top five energy exporters in the United States and have to 
backfill all of the grids in States like California, which is 
the number one energy importer, at nearly 90 million megawatt 
hours per year. My State's total export of energy could power 
every household and business in Orange and San Diego County for 
the entire year.
    Ms. Tezak, we have 50 States in this country with different 
needs and different weather patterns. What is needed in Hawaii 
won't necessarily be needed in Florida or New Hampshire. Can 
you discuss the pitfalls of a top-down approach of applying 
aggressive renewable schemes and mandates across all the 50 
States?
    Ms. Castor. I am sorry. The gentlewoman's time has expired, 
but we are going to encourage you to answer that for the 
record.
    And at this time I will recognize Mr. Casten for 5 minutes.
    Mr. Casten. Thank you, Chair Castor. Thank you so much to 
the witnesses.
    I want to respond a little bit to the last comment before I 
start.
    Our job here is to write the laws of the United States. 
That is a pretty awesome job. We are at our best when we 
respect the laws of economics and thermodynamics, because those 
laws you can't really change.
    Coal is dying because it is uneconomic, coal is dying 
because it is not thermodynamic, and coal is dying in spite of 
the fact that we do not charge coal for the full social cost of 
carbon that it imposes on society. The health costs of coal 
vastly exceed the revenue of any coal plant in this country, 
and they are getting that for free right now.
    If you don't believe me, all you have got to do is look 
at--we have fantastic good news. Over the last two decades, we 
have seen coal steadily lose market share to cleaner and 
cheaper alternatives, not because of the laws of this country, 
because of the laws of economics.
    Combined cycle, renewable energy, every one of those plants 
comes on and competes on the margin and is a better investment 
as it comes on. And so we are making that transition. Now, that 
is really good news.
    There is a cost. Over the last--from 2005 to 2018, energy 
related CO2 emissions dropped by 14 percent. The price of 
energy has fallen by about 6 percent. As my friend Mr. Levin 
pointed out, that is an opportunity we should embrace and 
double down on, not run away from.
    But it started going up last year. Last year the emissions 
rose by 1.9 percent. And there was a--there was a February 2019 
report from the EIA that suggests that a big part of the reason 
for that is that we are now increasingly deploying much less 
efficient natural gas power cycles to balance--to balance load 
and deal with the swings, because we have to do something when 
the wind isn't blowing and the sun isn't shining, and we don't 
have the transmission that Mr. Kiernan pointed out about or the 
storage capacity that was out there. Now, the only way, and I 
would submit the best way, to deal with that intermittency is 
not inefficient natural gas.
    And so I would like to start with Ms. Hamilton. Can you 
talk about how technologies like storage can change the story 
and ensure that we continue to see the economic and 
environmental gains of clean energy but also have the kind of 
reliability we have come to expect?
    Ms. Hamilton. Yeah, absolutely. And I will just say that 
coal that is inefficient and uneconomic in operating out of 
market is costing consumers a billion dollars a year. So it is 
indeed a price.
    In California, four peaker plants, natural gas peaker 
plants, that were not clean have been replaced with energy 
storage. And it wasn't more expensive. It was cheaper, quicker, 
and cleaner to install energy storage than it was to continue 
operating plants that were not economic. So I think that is one 
of the big solutions.
    Mr. Casten. So are there additional Federal policy support 
so they can accelerate the deployment of energy storage?
    Ms. Hamilton. Yeah. Certainly a tax credit would be really 
helpful, because those were standalone projects that were not 
coupled with any sort of other renewable resource.
    Allowing for flexibility--if you do a Federal clean energy 
standard of some sort, allowing for some credit for resources 
that are flexible like that, that can both serve as load or 
generation.
    And load is important in California. To suck up the belly 
of the duck, you need both load and generation at different 
times. And so I think those two policies would be really 
important.
    Mr. Casten. I love that you and I and maybe a couple of 
people in the room understand the belly of the duck joke. But 
thank you.
    So--so I agree obviously. And I was proud to introduce H.R. 
2909, the Promoting Grid Storage Act of 2019, among other 
things, that would authorize about a billion dollars for new 
cost-cutting energy storage, R&D at DOE, provide technical 
assistance. The effort is bipartisan, bicameral, would 
encourage all of my colleagues to sign on.
    I want to turn to the grid itself, because--and again, Ms. 
Hamilton, in your comment to Mr. Levin, you mentioned allowing 
load-sided resources to participate in FERC markets. You had me 
at load-sided market participation.
    However, one of the things that I think--I think we don't 
talk about it enough, but I would welcome your thoughts on, is 
that there are some ISOs, independent system operators, who 
allow that; there are some that don't.
    Can you just speak to the--the kind of market rules and 
market access in different FERC markets in the country that--
whether for load-sided participation or other ancillary 
services, where are the best practices that we should look to 
that we can point around the country and rule out?
    Ms. Hamilton. Well, everybody has a little work to do. I 
would say New England ISO has finally allowed solar and storage 
to start participating as a distributed energy resource.
    PJM has been traditionally pretty forward-thinking. A lot 
of the middle-of-the-country utilities and States opted out--
with Order 719, opted out of aggregation of demand response. 
And what that did was it really--MISO is a tough market anyway, 
because the prices are pretty low. But what it did was it just 
did not enable aggregation of resources of all types.
    But I have found working within States as diverse as 
Indiana, Missouri, Louisiana, that working with utilities to 
say let us--let innovators bring resources--all of these 
customer-sided resources to you and then you be able to bid 
those into the market, that that has been a really good 
solution and that utilities are starting to see that because 
they need solutions.
    Mr. Casten. Thank you. I am out of time.
    I would love to continue the conversation, because I think 
a lot of those market access and how--we get what we reward. 
Markets are really powerful. But if we don't send signals to 
people to build the kind of generation we want in the right 
place, we are not going to do it.
    Thank you and I yield back.
    Ms. Castor. Mr. Palmer, you are recognized for 5 minutes.
    Mr. Palmer. Thank you, Madam Chairman.
    Ms. Ross Hopper and Mr. Kiernan, how long have you all been 
in the solar/wind power generation business? How long has 
that----
    Ms. Ross Hopper. I have been generally in the energy work 
since 2000--my son was born in 2007--2008.
    Mr. Palmer. Okay. So 11 years.
    Ms. Ross Hopper. Yes, sir.
    Mr. Kiernan. I have been with AWEA particularly the last 
six years, but involved in energy and environmental policy for 
30.
    Mr. Palmer. For 30. Why is it----
    Mr. Kiernan. Plus or minus.
    Mr. Palmer. Why is it that wind and solar only represent 
about 5 percent of our energy production if we have had that 
industry around so long?
    It is a simple answer.
    Mr. Kiernan. Because of the dramatic, relatively recent 
costs in the last 10 years--dramatic decline in the last 10 
years, we are deploying more wind energy than ever, it is that 
recent cost decline that is a leading to a dramatic increase in 
wind deployment in the U.S.
    Mr. Palmer. But even with the cost decline, the cost is 
still extremely high.
    You mentioned that you need natural gas. What do you need--
I mean, if you didn't have the subsidies, the market wouldn't 
bear the cost. Why do you need natural gas?
    Mr. Kiernan. If I can address the first, per Lazard, we are 
the cheapest source of electricity unsubsidized.
    We do need and appreciate natural gas. It is a very 
important partner for wind energy. I would point out that the 
cost to back up wind energy is less expensive than the cost to 
back up conventional power plants, say coal or nuclear, because 
they can trip off.
    Mr. Palmer. But why do you need it?
    Mr. Kiernan. Because wind is variable. But a traditional 
power plant can trip off in an instant, and you need spinning 
reserves, which are more expensive----
    Mr. Palmer. No, the reason you need it is because our grid 
is designed for a baseload, and it is not designed for 
variations in that baseload.
    And if you don't have the ability to maintain a baseload, 
you are going to have disruptions in your--your output. That is 
why you need a backup system.
    Mr. Kiernan. The demand for electricity varies throughout 
the day, increases and decreases. And grid operators have 
learned how to manage that.
    Actually the variability for wind energy is less than the 
variability of demand of electricity. So grid operators talk 
about actually wind energy as the new baseload, because our 
variability is less than----
    Mr. Palmer. If you--but, again, you get into the 
engineering part of this, that--and this is from a report from 
the Institute of Electrical and Electronic Engineers. If a 
large enough share of the power grid flows through invertors, 
which you have to have when you are using wind and solar, the 
grid itself could collapse. Existing converter technologies 
have faced serious software problems and prompted outages where 
they have been deployed.
    You know, when you talk about going to zero carbon output, 
which, by the way, we had a hearing a couple of months ago, and 
if we completely eliminated our carbon emissions, it wouldn't 
stop climate change. We have got climate change that is 
occurring--it is going to occur no matter what we do on the 
carbon side.
    But when we talk about, you know, completely going to a 
renewable power grid, you are talking trillions and trillions 
of dollars.
    Mr. Kiernan. I will just mention, for wind energy, we are 
currently 6-and-a-half percent of generation throughout the 
entire United States, and we look forward to 10, 20, 30 percent 
or more. There is all kinds of headroom with wind energy 
currently.
    Mr. Palmer. Are you aware of the problems they are having 
in Spain and Germany right now with their renewables?
    Mr. Kiernan. I am not an expert on international energy 
issues.
    Mr. Palmer. Well, I think you ought to take a look at it if 
you want to have that as the primary source of power for the 
United States.
    Here is a New York Times article: Renewable Energy in Spain 
is Taking a Beating. It is exorbitantly expensive.
    There was a hearing before the--the House Select Committee 
on Energy Independence and Global Warming back in September of 
2009 where two professors from Spain testified that for every 
one green job financed by the Spanish taxpayer, 2.2 jobs were 
lost as an opportunity cost.
    Here is another from a publication called Blue and Green: 
Has Spain Learned its Renewable Lesson? Der Spiegel had an 
article about the problems in Germany. And the thing is, I am 
all for renewable power. I am fine with that. But there are 
certain engineering realities that--that we are going to have 
to face. And to tell the American public that we are going to 
have a Green New Deal that makes us--puts us at all renewables 
in 10 years, frankly I think is doing the public a great 
disservice.
    I yield back.
    Ms. Castor. Thank you.
    Ms. Brownley, you are recognized for 5 minutes.
    Ms. Brownley. Thank you, Madam Chair.
    And I want to thank you also for traveling to my district 
over the Memorial Day recess. And I think we saw a lot in the 
district in terms of impacts of the climate change and also 
innovative ways to address it.
    One of the places that we visited was Houwelings Tomatoes, 
which is an innovator in sustainable agriculture. And they grow 
tomatoes year-round in a greenhouse, which uses about a sixth 
of the water, compared to field-grown tomato. They run their 
whole facility from a 5-acre solar photovoltaic field. It is 
quite innovative.
    The CEO of Houwelings certainly pointed out to us in our 
visit that unlike Europe, you know, one of the barriers that he 
saw is there are not enough financial tools available to 
provide capital for low carbon or no carbon projects.
    And I think, Ms. Hamilton, you mentioned a green bank 
concept. We have talked a lot about tax credits today, and I 
think--I believe in tax credits and the incentives to move the 
markets along.
    What about, you know, this concept of a green bank?
    Ms. Hamilton. Yeah, thank you very much for asking that 
question.
    Because there are a lot of projects that traditional 
financing just won't cover and traditional banks won't come to 
the table for, and a lot of those are energy efficiency 
projects that are commercial, and they are projects that make 
sense for customer savings, and yet no one is going to finance 
them.
    So having some kind of institution, whether it is quasi 
Federal or a full Federal institution that really brings that 
capital and does a lot of public/private partnerships--they 
have done this in New York. They have one in Hawaii, Rhode 
Island. There are several--Connecticut was another green bank--
Montgomery County, Maryland, has a green bank. This brings 
capital and puts it toward projects that would not normally be 
financed but that are still really viable commercially.
    So I think it is a great thing--a concept to think about 
and to think about how we can do something that consumers could 
actually benefit from and also participate in.
    Ms. Brownley. And so some of the green banks that you 
mentioned have--are they--have they gone through full 
lifecycles of investments of sorts?
    Ms. Hamilton. Yes. Yes. So there are definite success 
stories----
    Ms. Brownley. And the returns have been stable?
    Ms. Hamilton. Yeah, been great, absolutely.
    Ms. Brownley. Thank you. Thank you for that.
    Ms. Hopper, you talked--you know, in your testimony, you 
talked about an aggressive goal of 20 percent of solar by 2030. 
The breakdown on that is do you see it mainly coming from 
rooftop--you know, residential rooftop solar, or is it, you 
know--what is the breakdown between that and large utility-
scale deployments?
    Ms. Ross Hopper. Thank you for the question. It is always 
nice when people recognize that there is all different ways to 
deploy solar.
    So we think it--roughly track what the market is now. So 
now it is about 60 percent utility-scale, so big solar farms; 
about 20 percent commercial and industrial. So tops of--tops of 
companies, tops of Walmarts, you know, community solar, and 
then about 20 percent residential.
    Ms. Brownley. And that--and as you said in your testimony, 
in the first 10 years, it was--the growth was slow and then 
very fast.
    Ms. Ross Hopper. Right. It definitely hit an inflexion 
point.
    Ms. Brownley. And then once you hit that inflection point, 
was there a shift in the breakdown of that, or was it because 
of more residential solar?
    Ms. Ross Hopper. That is a good question. I don't know 
historically. I am happy to look back and get that to you.
    Ms. Brownley. Okay. Okay.
    And, Mr. Kiernan, Ms. Hopper talked about an aggressive 
goal of 20 percent by 2030. In terms of wind energy, you talked 
a lot about wind production. Just--if you could, can you put 
what you said in your testimony and make it comparable to what 
it would look like in a 2030 scenario?
    Mr. Kiernan. Yes, I can. And I will harken back to a 
document, a process called wind vision that DOE did under 
President George W. Bush and then updated by Barack Obama. They 
laid out a goal, so both Presidents--10 percent by 2020 and 20 
percent of all electric generation in the U.S. is wind energy 
by 2030, and then onto 35 percent by 2050, I believe, as wind 
energy.
    And I will just observe the head--the manager of operations 
in SPP--a quick quote--he talks about 10 years ago we thought 
hitting even 25 percent wind penetration would be extremely 
challenging. Now we have the ability to reliably manage greater 
than 50 percent penetration. It is not even our ceiling. That 
is the gentleman that manages SPP. Sorry.
    Ms. Brownley. And the technology for wind, how quickly is 
that----
    Ms. Castor. I am sorry. The gentlewoman's time has expired. 
We have a vote call, so I am going to recognize the----
    Ms. Brownley. Oh. I apologize.
    Ms. Castor [continuing]. Ranking member for 5 minutes.
    Mr. Graves. I am going to try and go very quickly here so 
we can squeeze a bunch in.
    Ms. Hopper and Mr. Kiernan--and I don't want to put words 
in your mouth, Ms. Hamilton--but I believe there was a lot of 
talk about kind of reimagining the grid or redesigning the grid 
and transmission systems based upon this renewable technology 
evolution that we are going through.
    Is that fair somewhat?
    Ms. Hamilton. Well, and we can use technologies that we 
have today. We don't necessarily have to redesign, but 
reimagine.
    Mr. Graves. Okay. Reimagine.
    The challenges that we are seeing right now in deploying 
the transmission lines, it is--we are running into challenges 
with the Endangered Species Act and 404 and National 
Environmental Policy Act and all of these things. And we are 
running into similar challenges with transmitting or 
transporting natural gas, which is needed for some of the 
balancing of your--of your resources.
    What does this streamlined regulatory process look like 
that helps to facilitate or deploy renewables in your mind?
    What does that look like?
    Mr. Kiernan. I think it is doable and manageable. We were 
talking with Chairman Chatterjee at FERC this week--last week. 
It is better planning, and it is giving FERC some backstop 
authority so that decisions on transmission lines can get made. 
We just need to move it more rapidly, but we have the tools and 
technology with us today.
    Ms. Ross Hopper. I will just add one additional piece of 
that is once we have the transmission lines built--and I concur 
with Tom--then we have to get the projects interconnected. And 
so that is the other half that has to happen. And we have to 
have sort of clear standards and expectations from utilities 
about how quickly they have to plug in these systems.
    Mr. Graves. Thank you.
    Quickly, Ms. Tezak, there was a lot of discussion about 
cost competitiveness of renewables. But I also heard in the 
same breath, production tax credit, investment tax credit, 
carbon tax, renewable portfolio standards, procurement 
preferences, and other things that somewhat distort price.
    You also referenced perhaps approaching a trillion-dollar 
investment in order to achieve this objective of Mayor 
Bloomberg.
    Can you talk a little bit just about cost competitiveness 
and what that looks like in terms of taxpayer investment 
quickly, please?
    Ms. Tezak. Sure. And I will describe the universe right 
after that.
    I think the challenge is, is that because natural gas has 
been so modestly priced, it has been extremely competitive on 
the margin. And while, you know, we have seen great advances 
in, you know, for example, in SPP and, you know, wind is 
absolutely kicking proverbial tail there and in Texas, those 
are locational areas. That doesn't help Georgia. It certainly 
doesn't help Georgia in the absence of transmission. It doesn't 
help other parts of the country if it is trapped locally. It is 
a great resource for those who have it.
    So I think when you are--when you are hearing calls for, 
you know, continued expansion of tax programs, there is two 
things to think about. One, that means that the marginal cost 
environment is still very competitive, in part because in many 
places we have oversupply.
    Mr. Graves. Ms. Tezak, just because I am going to try and 
squeeze this in real quick, could I ask you to respond to that 
in writing?
    Ms. Tezak. Sure, absolutely.
    Mr. Graves. Thank you. And I yield to Mr. Griffith.
    Mr. Griffith. Thank you very much. I am going to try to do 
this, because we have got votes going fairly quickly.
    So let me start with coal, since we were just there. And my 
colleague on the other side of the aisle said that, you know, 
coal was hurt by financial circumstances, and that is true. But 
regs hit our area first, because I have the Virginia section of 
the coal fields that my colleague from West Virginia has on the 
other side of the line.
    And regs came in first to hurt coal and then fracking. And 
what I found so fascinating is, most of the time people on my 
left don't like fracking either. But what has made coal not 
financially marketable for energy production or electric 
production has been the fracking and the gas fields of 
Marcellus and Utica. So you have got to have one or the other.
    So that being said, I would also say that you can't make 
good quality steel without using some of our metallurgical coal 
from the coal fields.
    Now, my friend Mr. Kelly has talked about rare-earth 
earlier. And one of the great breakthroughs is we can actually 
do two things, because apparently there is a greater amount of 
the rare-earths in the area in central Appalachia where the 
coal meets the rock. And if we can learn how to extract that, 
we can do better.
    And as this committee has heard me say before, that is 
technology we can export, because what has--what has happened 
is--is that that technology, although it is not fully refined 
yet, is now being licensed to steel mills in India, because 
they can lower the carbon footprint of the Indian coal. And 
that is where I think we need to go, is with research.
    Yesterday I had a meeting with--along with a number of 
others--with Paul Dabbar, the DOE Under Secretary for Science, 
and he was talking about that they have got a film that they 
believe is just about ready for primetime--not quite, but just 
about ready--that will take carbon dioxide out of our coal-
fired power plants and our natural gas-fired power plants.
    Technology is going to help us break through. I am all for 
research on renewables, but we need to do research on ways that 
we can make our carbon-based forms of energy more affordable, 
and we also have to make sure we look at hydro.
    With that, I will yield back, because I know that we are 
running out of time.
    Ms. Castor. Thank you, Mr. Griffith.
    Recognize Mr. McEachin for 5 minutes.
    Mr. McEachin. Thank you, Madam Chair, and thank you for 
this hearing.
    You know, there is a myth going around that renewable 
energy is bad for low-income communities and communities of 
color. I want to explore that myth for a moment.
    And, Ms. Hopper, you have spoken about what I think you 
called community solar deployment as an option for folks. Can 
you elaborate beyond what you put in your written testimony 
about that?
    Ms. Ross Hopper. Sure. So community solar projects are 
projects where folks sort of buy a share of the--of the output 
of the community solar. So it applies--you know, I live in a 
house that has a lot of trees around it, so I can't put solar 
on my house because there is no sunlight that comes. It is for 
folks that live in multifamily buildings; it is sometimes for 
folks of low and moderate income.
    So it is a model that allows access to folks other than 
simply homeowners. I think that--it is clearly--lots of States 
have chosen to allow the regulatory construct to have that 
happen. I think at the Federal level, there are opportunities 
to help move community solar forward through sort of best 
practices and perhaps some funding opportunities.
    Mr. McEachin. You have also in your written testimony 
outlined the need to build a robust workforce for solar energy, 
and you note that solar installation, in terms of the number of 
jobs, is among the fastest growing industries in the country.
    Could you tell us what Congress should do to make these 
solar jobs available to more people in diverse communities 
around the country?
    Ms. Ross Hopper. Absolutely. Thank you for that question.
    I forget--one of the folks who sat down there talked about 
this being one of the largest wealth-creating opportunities 
available. And I believe that to my core. I think as we think 
about how we are going to literally transform our energy 
system, there is going to be so much opportunity for wealth 
creation, ensuring that communities of all varieties have an 
opportunity at wealth creation and not simply getting a job is 
important.
    What can the Federal Government to do so sort of help that? 
I think there are workforce development--we have heard 
consistently about the need for these workers, and at least in 
the solar industry. Tom can talk about wind.
    It is everything from construction workers to electricians 
to financiers to sort of predict--you know, literally 
forecasting sunlight. And so making sure that our--everything 
from our high schools to our community colleges to our 
universities have clear links to our industry and--so students 
understand opportunities that are available to them is 
important.
    I think having some transparency around sort of where we 
are getting our candidates from. So at SEIA we have developed 
an MLU with historically black colleges and universities to 
ensure that our pipelines are diverse as well for these jobs.
    So I think there is lots of things--as I am sure you know, 
Congressman Rush has a bill on workforce diversity that we are 
fully supportive of.
    Mr. McEachin. Very good. I thank you. I thank the 
witnesses.
    And, Madam Chair, I yield back.
    Ms. Castor. Well, thank you, Mr. McEachin.
    And thank you to our witnesses today for expert analysis 
and participating in the Climate Crisis Committee and how we 
ramp up renewables to solve the climate crisis.
    Without objection, all members will have 10 business days 
within which to submit additional written questions for the 
witnesses. I ask our witnesses to please respond as promptly as 
you can.
    And I encourage the public to follow the work of the 
committee at climatecrisis.house.gov and on 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="95c1e2fce1e1f0e7d5f6f9fcf8f4e1f0f6e7fce6fce6bb">[email&#160;protected]</a>
    The hearing is adjourned. Thank you.
    [Whereupon, at 11:35 a.m., the committee was adjourned.]
                               __________

United States House of Representatives, Select Committee on the Climate 
                                 Crisis

  Hearing on June 13, 2019, ``Solving the Climate Crisis: Ramping Up 
                              Renewables''

                        Questions for the Record

   Christine Tezak, Managing Director, ClearView Energy Partners, LLC

                      the honorable garret graves
    1. There was a lot of discussion about cost competitiveness of 
renewables. But I also heard in the same breath, production tax credit, 
investment tax credit, carbon tax, renewable portfolio standards, 
procurement preferences, and other things that somewhat distort price.
    Can you talk a little bit just about cost competitiveness and what 
that looks like in terms of taxpayer investment quickly, please?
    Thank you for the question, Ranking Member Graves. First, electric 
generation assets (power plants) are dispatched (given orders to 
produce power) most economically when the grid operator or local 
balancing authority/utility can follow ``security constrained economic 
dispatch.'' That technique relies on two inputs, operating 
characteristics and price. Power plants are ``stacked'' according to 
these two attributes and then are given orders to produce power by the 
grid operator based on the amount of demand that needs to be met. This 
is would be dispatch ``in merit order.'' When grid operators deviate 
from this efficient approach customers can face higher and more opaque 
costs in the form of locally higher rates, uplift charges, and a higher 
tax burden that does not necessarily fund power supplies they use.\1\
---------------------------------------------------------------------------
    \1\ https://www.sciencedirect.com/science/article/pii/
S0960148115300343.
---------------------------------------------------------------------------
    Some emissions--such as sulfur dioxide (SO<INF>2</INF>) \2\ and 
nitrogen oxides (NO<INF>X</INF>) \3\--have trading and credit markets 
with transparent prices that are readily incorporated into the power 
plant's price. We would argue that these emissions-oriented policies do 
not ``distort'' prices, but integrate those nationally applicable 
policies into generation asset price profiles.
---------------------------------------------------------------------------
    \2\ https://www.epa.gov/airmarkets/acid-rain-program.
    \3\ https://www.epa.gov/airmarkets/phase-ii-acid-rain-program.
---------------------------------------------------------------------------
    However, state-level and regional policies that focus on increasing 
renewable energy deployments or non-price preferences for lower carbon 
resources can ``distort'' prices when they operate outside the 
electricity market algorithms that set dispatch merit order. This has 
led to several iterations of price formation and market reform 
proceedings at the Federal Energy Regulatory Commission to address 
``out of market'' policies adopted by states who regulate the market 
participants, primarily in New England the PJM Interconnection regions.
    Renewable portfolio standards/procurement practices and production/
investment tax credits can make it more difficult for the market 
operator to follow security constrained economic dispatch because the 
costs of these policies isn't well reflected in market prices. For 
example, RPS programs and renewable energy tax credits have fostered 
the entry of power generation assets that do not follow dispatch.\4\ 
Wind farms produce power when the wind blows and solar when the sun 
shines, not when the grid operator directs them. This means that the 
grid operator often must accommodate those resources first, even though 
they may not be the first to dispatch from an operational 
characteristics basis, and deploys other assets to complement them.
---------------------------------------------------------------------------
    \4\ https://blogs.ei.columbia.edu/2018/03/16/how-much-do-
renewables-actually-depend-on-tax-breaks/.
---------------------------------------------------------------------------
    Depending on the time of day, this accommodation may require that 
the grid operator ask other generators to back down their production by 
charging them to produce power instead of paying them for it (negative 
pricing), or dispatching higher-priced, but more flexible capacity that 
can provide power in small increments until the full capacity of a 
larger (baseload) asset can be accommodated at its lower price. Wind's 
production tax credit, worth as much as $23/MWh for many existing 
facilities, means that these assets have $23/MWh of ``headroom'' 
relative to other generators, buffering them from the adverse impacts 
of lower prices. Even as the tax credit has declined ahead of 
expiration, deployments remain robust.<SUP>5</SUP> 6
---------------------------------------------------------------------------
    \5\ https://www.eia.gov/todayinenergy/detail.php?id=39472.
    \6\ https://fas.org/sgp/crs/misc/R43453.pdf.
---------------------------------------------------------------------------
    To be clear, tax-preferred resources with no fuel costs (such as 
wind/solar) can and do lead to lower wholesale prices in the hours when 
they are plentiful, something that does benefit consumers. However, 
these cost decreases can be offset by increases elsewhere on the 
system. Structurally lower wholesale market prices, in particular for 
baseload energy (often provided by coal and nuclear plants), can lead 
to power plant retirements, and in some areas, may have adverse impact 
on the ability to maintain system stability and power delivery at high 
demand (peak) or emergency periods. Some of those retirements do not 
adversely impact ratepayers financially, however some do. If an asset 
is retired before it is fully recovered in retail rates, customers may 
still be obligated to pay off most, if not all, of the remaining value 
of the asset, if the plant's construction had been approved by 
regulators. These costs could offset the savings from the lower prices 
of the newer market entrants.\7\
---------------------------------------------------------------------------
    \7\  https://www.economist.com/leaders/2017/02/25/wind-and-solar-
power-are-disrupting-electricity-systems, https://www.forbes.com/sites/
michaelshellenberger/2019/05/27/we-shouldnt-be-surprised-renewables-
make-energy-expensive-since-thats-always-been-the-greens-goal/
#45a506224e6d.
---------------------------------------------------------------------------
    In addition, incremental transmission and distribution system 
investments may be required to handle retirements, shifts in power 
flows. These are occasioned when renewable assets must be located where 
nature provides the best opportunity, and that may not necessarily be 
the most optimal location.\8\ Further, the power grid has been 
substantially constructed to flow power one direction--from generation 
resources to customers.\9\ However, when customers produce more energy 
than they can use they become ``pro-sumers'' and power may flow the 
other direction on the distribution system.
---------------------------------------------------------------------------
    \8\ https://blog.friendsofscience.org/2018/03/22/examining-the-
claim-that-renewable-energy-will-soon-replace-fossil-fuels/.
    \9\ https://pages.bv.com/SDR-SmartUtilities-Download.html.
---------------------------------------------------------------------------
    Retooling the nation's grid to accommodate this new capability 
won't happen without investment (in other words, money from 
ratepayers). We would argue adoption of incrementally lower greenhouse 
gas emitting resources are not neutral to ratepayers, and in some cases 
may result in rate increases to cover investments ahead of potential 
savings realized over the longer term.
    Incremental investment in both the transmission and distribution 
systems is generally socialized across all grid users, not paid for by 
the owner of the renewable generation resource. We'd agree that these 
investments in ``grid modernization'' do have benefits beyond 
renewables integration, but the cost impact of renewables deployment 
can be opaque to the consumer given that these investments are not 
reflected in the wholesale prices offered by renewable energy assets to 
the wholesale market.
    This ratemaking reality can make the cost of new renewables assets 
more opaque. Further, pro-sumers seek to be paid for ``excess'' energy 
their systems may be able to produce relative to their load. Initial 
rate designs in this area have been so beneficial to these pro-sumers 
that many states have been making incremental reforms to their rate 
design to reduce and eventually eliminate cross-subsidization between 
customer classes.
    In addition, the excess gross supply of power generation assets and 
low market prices have undermined the ability of flexible units to make 
reasonable returns to stay in the market (the experience of natural gas 
plants in California provides an extreme example). This leads to calls 
for incremental charges for reliability must run (RMR) contracts to be 
struck (and paid by customers) or very high, and volatile peak pricing 
schemes to prevent the closure of these power plants, too. These less 
transparent costs can eat into the notional ``cost savings'' of lower 
wholesale market prices, and potentially offset them altogether.
    Therefore, at the end of the day, electricity customers pay for 
power generated and delivered to them over the nation's grid. They pay 
taxes, too. Customers can face higher electricity rates that support 
procurements to preserve reliability arising from local or regional 
needs--whether to retain coal-fired or nuclear baseload plants or 
natural gas mid-merit and peaking facilities--and increased investment 
in the grid to accommodate the renewables capability their taxes also 
support.
    A quick word about carbon taxes or carbon prices. While this policy 
would not be without cost it has the potential to be more transparent 
(much like SO<INF>2</INF> and NO<INF>X</INF> credits) and easier to 
integrate into restructured market algorithms.
    Further, if adopted as part of a holistic, national policy 
decision, Congress would have the opportunity to direct some of the 
revenues raised from a greenhouse gas limitation program to the areas 
of the country facing the largest transition challenges if needed. This 
may be appropriate to reflect two important realities. First, some 
areas of the country have more renewables or low carbon generation 
resources available than others.\10\
---------------------------------------------------------------------------
    \10\  http://archives.maproomblog.com/2008/03/
us_atlas_of_renewable_resources.php.
---------------------------------------------------------------------------
    Second, the nation's environmental, energy and industrial policies 
in place 40-50 years ago differ dramatically from those adopted over 
the last decade and under discussion today. Many regions that are still 
carbon-intensive in power generation are facing other economic 
challenges, including de-industrialization as well as economic reliance 
on the production of the natural resources a national policy that would 
limit GHG emissions could constrain or eliminate altogether over time.
    Policy proposals that reflect these two realities would appear to 
be the most likely to be adopted nationally. Policy proposals that 
advantage one region of the country at the expense of others 
(particularly those that purport to ``reward'' areas that are deemed 
``first movers'') and do not consider ameliorating the potential 
adverse consequences of a rapid transitions have not succeeded to date, 
and appear unlikely to in future.

                        Questions for the Record

             Katherine Hamilton, Chair, 38 North Solutions

                       the honorable kathy castor
    1. In some regions of the United States, it may be difficult to use 
renewable energy during extreme weather, such as during extremely cold 
weather in the northern part of the country. How could greater use of 
flexible energy resources help address this challenge?
    Interestingly, based on the evidence, the issue of resources unable 
to operate in extreme weather situations is almost entirely limited to 
traditional generation, not renewables and flexible resources. Several 
examples of resilience provided by flexible resources were cited in my 
testimony. In addition, I would refer the Committee to Hurricane 
Florence news stories that discuss the nuclear and coal plants not only 
having to shut down in preparation for the storm, but also coal ash 
ponds being breached, causing collateral environmental damage to water 
systems in North Carolina. The resources most quickly brought back on 
line were solar farm, and, luckily, the state has many solar systems. 
Another story to point to is natural gas in the Midwest this past 
winter; in many parts of the country, there is a tension between 
natural gas being used for home heating and the supply for generation. 
Wind energy resources are hearty in hurricanes with self-managing 
systems to ensure blades are locked and feathered to prevent damage. As 
I mentioned in my testimony, demand response, microgrids, and 
distributed generation (as long as it is able to disconnect from the 
overarching grid) all prove to be the most resilient resources on the 
system.
    2. Conventional fossil fuels are often more energy dense than newer 
technologies. How should Federal Research and Development (R&D) 
investments be targeted to address this challenge?
    Rather than thinking about energy density as the attribute we need, 
I recommend instead focusing on end-states (parity of cost and 
performance at the system level). Taking electric vehicles as an 
example, rather than comparing the size of the battery to the size of 
the gasoline tank, one would look at the mileage achieved in a similar 
sized vehicle at a particular price--performance and service provided 
rather than one specific measurement that may not translate (or be 
relevant) between technologies. In recent testimony before House 
Science Committee, I discuss this issue of attribute as well. I use the 
example of energy storage to state that ``rather than identifying this 
research as `grid-scale' or prescribing time durations for storage 
technology operations, I recommend instead stating the problems that 
should be solved or the services delivered, and allow new chemistries 
and technologies--individually or as a system--be developed that can 
fit those needs.'' The same should be true for other flexible 
technologies: state the problem that needs solving and build the R&D 
around possible solutions. Comparing fossil fuel to renewable plus 
storage systems, the question might be whether we want leaded or 
unleaded paint; one resource exacerbates climate change while the other 
mitigates it.
    3. Most decarbonization scenarios anticipate electrification of 
transportation and industry and greater use of battery storage. 
However, batteries require the use of precious metals that are mostly 
imported. How should the Federal government drive the development of 
battery recycling?
    Precious metals (Rhodium, Platinum, Gold, Palladium, and Silver) 
are used in electronics and catalytic convertors, but are not used in 
lithium-ion batteries. Rather, metals such as Cobalt, Nickel, Lithium, 
Aluminum, Manganese, and Iron are used in manufacturing those 
batteries. The cathode of the battery is made from a Lithium-Cobalt-
Nickel oxide mixture on an Aluminum foil while the anode of the battery 
is made from graphite on Copper foil. Recycling end of life lithium-ion 
batteries in the U.S. should encourage processes that return those 
elements to be reused in battery materials. Reuse of the recovered 
elements only makes sense, of course, if there is a robust lithium-ion 
battery manufacturing industry, accompanied by collection, dismantling 
and pre-processing, and refining capability. While the U.S. has 
established collectors and pre-processors, there is no lithium-ion 
refining capacity in the U.S. By establishing federal policies--
establishing best practices for collection, requiring labeling and 
responsibility from manufacturers, and ensuring the federal government 
leads by example, as just a few ideas--we could create the certainty 
and market scale for refiners to build recycling plants here in the 
U.S.
    4. What should Congress do to ensure that flexible demand-side 
resources are integrated into wholesale power markets?
    With jurisdiction over the Federal Energy Regulatory Commission, 
Congress is able to exert pressure on that agency to make a final rule 
on the Distributed Energy Resource rulemaking. Senators and Members of 
the House (on both sides of the issue) have sent letters urging FERC to 
act on the rulemaking. A more durable solution, of course, would be 
legislation that clarifies flexible demand-side (consumer) resources in 
the Federal Power Act as being able to serve as resources--just as 
generators serve as resources--and have access to a participation model 
in the wholesale market.
    5. During the hearing, the challenges that European countries, 
especially Spain and Germany, faced in the last decade as they have 
increased their use of renewable energy were raised. Overall have Spain 
and Germany succeeded in increasing their use of renewable energy in a 
way that has benefited their economy? Are there any overarching lessons 
that the United States can learn to inform the development of national 
polices from these countries?
    European countries have indeed experimented with renewable energy 
policy and technology and felt some growing pains, although the result 
has been that renewable energy is now the cheapest source of 
electricity in those regions. Spain and Germany, in particular, each 
put into place a Feed-In-Tariff (FIT), which set higher payments for 
renewable energy, thus drawing investment from those industries. Over 
time, this policy kept prices higher as the cost of renewables dropped. 
Subsequently, adjustments have been made to ensure that consumers are 
not paying more than market price for renewable energy. Today, Spain 
and Germany have adjusted down or removed their FIT altogether and have 
seen some of the highest penetration of renewable energy, while also 
enjoying economic and environmental benefits. In fact, a quarter of the 
start-up companies in Germany contribute to the green economy. A FIT 
was also instituted in Ontario, Canada, setting high prices to 
incentivize renewable energy deployment. While this policy worked to 
scale renewables, over time it also kept prices higher than the market. 
The U.S. has not instituted a FIT policy on the federal or state level, 
but instead has used tax incentives, Renewable Portfolio Standards, 
emissions trading schemes, and other procurement policies to scale 
renewable deployment and lower prices for consumers. Today, thanks to 
experimentation by countries in Europe as well as the U.S., solar and 
wind are in many cases the cheapest sources of energy.
                               references
Question #1 references
    Hurricane Florence and nuclear:
    https://www.washingtonpost.com/news/powerpost/paloma/the-energy -
202/2018/09/18/the-energy-202-hurricane -florence-blows-hole-in-trump-
team-s-case-for-helping-coal-and-nuclear -power-critics-say/
5ba022621b326b 47ec9596b9/?utm_term=.a25d19c1e4f5.
    Hurricane Florence and coal:
    https://www.nytimes.com/2018/09/21/climate/florences-floodwaters-
breach-defenses-at-power-plant-prompting-shutdown.html
    Hurricane Florence and solar:
    https://insideclimatenews.org/news/20092018/hurricane-florence-
solar-panel-energy-resilience-extreme-weather-damage-wind-flooding
    Nuclear and cold temperatures:
    https://www.pressofatlanticcity.com/news/below-freezing-temps-shut-
down-salem-nuclear-reactor/article _X2fb9b5c7-931f-57be-b4a1-
0db516b7e439.html
    Midwest natural gas story:
    https://www.nepr.net/post/deep-freeze-puts-strain-midwest-gas-and-
electricity-grids#stream/0
    DOE study on wind energy and natural disaster:
    https://www.energy.gov/eere/articles/wind-turbines-extreme-weather-
solutions-hurricane-resiliency
    Advanced Energy Management Comments to California Wildfire Strike 
Force:
    https://aem-alliance.org/aema-urges-consideration-of-der-in-
wildfire-mitigation/
Question #2 references
    Link to Science Committee Testimony can be found here:
    https://science.house.gov/hearings/the-future-of-electricity-
delivery -modernizing-and-securing-our-nations-electricity-grid
Question #3 references
    See new DOE program on battery recycling: https://
americanmadechallenges.org/batteryrecycling/
    Umicore, Inc. chart shows where facilities are located: https://
csm.umicore.com/en/recycling/battery-recycling/e-mobility/
    Recycling in the EU is driven by the WEEE directive, which creates 
certainty for industry: https://ec.europa.eu/environment/waste/weee/
legis _en.htm https://www.pv-magazine.com /2019/03/25/innovation-
boosts-lithium -ion-battery-recycling-rate-to-over-80/
Question #4 references
    Letter to FERC on DER NOPR from House Members in support of DER 
rulemaking: https://mikelevin.house.gov/sites/mikelevin.house.gov /
files/Letter%20to%20FERC%20re%20DER%20Rulemaking%20021119.pdf
    Letter to FERC on DER NOPR from Senators in support of 
participation model: https://www.whitehouse.senate.gov/imo/media/doc/
2019-02 -11%20FERC%20Letter.pdf
    Letter to FERC on DER NOPR from Senators opposed to DER in 
wholesale market: https://www.hoeven.senate.gov/imo/media/doc/
2019.05.07%20Hoeven%20 
Letter%20to%20FERC%20on%20DER%20Aggregation%20by%20Third%20 Parties.pdf
Question #5 references
    See analysis on current solar boom in Spain: https://
www.greentechmedia.com/articles/read/spanish-gold-rush-fuels-new-
european -solar-boom#gs.tz3kf7
    Solar as engine for economic boom in Spain: https://
www.renewableenergymagazine.com/pv _solar/solar-power-is-engine-of-
spain-s-20190410
    Germany has also seen a rise in solar installations as a result of 
cutting back their FIT: https://www.pv-magazine.com/2019/08/01/germany-
installed-2-gw-of-solar-in-six-months/
    Report on start-ups in Germany: https://www.cleanenergywire.org/
news/quarter-german-start-ups-contribute-green-economy-report
    Blog from NRDC on economic benefit of climate policy to state of 
California: https://www.nrdc.org/experts/ralph-cavanagh/new-report-
shows-how-climate-action-and-healthy-economy-wo
    New York is taking much of its offshore wind strategy from what 
Europe has learned: https://www.nypa.gov/news/press-releases/ 2019/
20190807-key-learnings-offshore-wind-transmission-models

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
